<html>
<title> - MAINTAINING OUR NATION'S HIGHWAY AND TRANSIT INFRASTRUCTURE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        MAINTAINING OUR NATION'S
                   HIGHWAY AND TRANSIT INFRASTRUCTURE

=======================================================================

                               (110-133)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 5, 2008

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                   U.S. GOVERNMENT PRINTING OFFICE
42-776 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ARCURI, New York          CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)

?

                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
ELLEN O. TAUSCHER, California        THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          ROBIN HAYES, North Carolina
MICHAEL H. MICHAUD, Maine            HENRY E. BROWN, Jr., South 
BRIAN HIGGINS, New York              Carolina
GRACE F. NAPOLITANO, California      TIMOTHY V. JOHNSON, Illinois
MAZIE K. HIRONO, Hawaii              TODD RUSSELL PLATTS, Pennsylvania
JASON ALTMIRE, Pennsylvania          JOHN BOOZMAN, Arkansas
TIMOTHY J. WALZ, Minnesota           SHELLEY MOORE CAPITO, West 
HEATH SHULER, North Carolina         Virginia
MICHAEL A ARCURI, New York           JIM GERLACH, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  MARIO DIAZ-BALART, Florida
JERRY McNERNEY, California           CHARLES W. DENT, Pennsylvania
BOB FILNER, California               TED POE, Texas
ELIJAH E. CUMMINGS, Maryland         DAVID G. REICHERT, Washington
BRIAN BAIRD, Washington              CHARLES W. BOUSTANY, Jr., 
DANIEL LIPINSKI, Illinois            Louisiana
DORIS O. MATSUI, California          JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               CANDICE S. MILLER, Michigan
ZACHARY T. SPACE, Ohio               THELMA D. DRAKE, Virginia
BRUCE L. BRALEY, Iowa, Vice Chair    MARY FALLIN, Oklahoma
HARRY E. MITCHELL, Arizona           VERN BUCHANAN, Florida
LAURA A. RICHARDSON, California      ROBERT E. LATTA, Ohio
ALBIO SIRES, New Jersey              JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Allegra, Michael, Assistant General Manager and Chief Capital 
  Development Officer, Utah Transit Authority....................     6
Biehler, P.E., Hon. Allen D., Secretary of Transportation, 
  Commonwealth of Pennsylvania...................................     6
Bowman, Hon. Leo, Commissioner, Benton County, Prosser, 
  Washington.....................................................     6
Rahn, Hon. Pete K., Director, Missouri Department of 
  Transportation.................................................     6
Schlickman, Stephen E., Executive Director, Regional 
  Transportation Authority, Chicago, Illinois....................     6
Watson, Linda, Chief Executive Officer, Central Florida Regional 
  Transportation Authority.......................................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    43
Cummings, Hon. Elijah E., of Maryland............................    44
Mitchell, Hon. Harry E., of Arizona..............................    50
Oberstar, Hon. James L, of Minnesota.............................    51
Tauscher, Hon. Ellen O., of California...........................    55

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Allegra, Michael.................................................    56
Biehler, P.E., Hon. Allen D......................................    62
Bowman, Hon. Leo.................................................    72
Rahn, Hon. Pete K................................................    76
Schlickman, Stephen E............................................    80
Watson, Linda....................................................    88

[GRAPHIC] [TIFF OMITTED] T2776.001

[GRAPHIC] [TIFF OMITTED] T2776.002

[GRAPHIC] [TIFF OMITTED] T2776.003

[GRAPHIC] [TIFF OMITTED] T2776.004

[GRAPHIC] [TIFF OMITTED] T2776.005

[GRAPHIC] [TIFF OMITTED] T2776.006

[GRAPHIC] [TIFF OMITTED] T2776.007

[GRAPHIC] [TIFF OMITTED] T2776.008

[GRAPHIC] [TIFF OMITTED] T2776.009



 HEARING ON MAINTAINING OUR NATION'S HIGHWAY AND TRANSIT INFRASTRUCTURE

                              ----------                              


                         Thursday, June 5, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                      Subcommittee on Highways and Transit,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Peter 
DeFazio [Chairman of the Subcommittee] presiding.
    Mr. DeFazio. We have an esteemed colleague who is here and 
wants to introduce one of the members of the panel and, since 
he is not a Member of the Committee, we sat him down front 
there and then we are going to subject him to a lot of 
questions after he does the introduction. So I hope you know 
the subject matter.
    Turn on your mic and go right ahead.
    Mr. Matheson. Thank you, Mr. Chairman.
    As a former Member of the Committee, it is a pleasure to 
return for just a brief introduction. The reason I thought it 
was important to make this introduction is because I find that 
when we talk about public policy here in Washington sometimes 
it can take on a theoretical level, and there is no substitute 
for looking at actual practical applications out in the 
Country.
    When it comes to transit policy, I think it is very 
instructive to look at the experience in my home State of Utah. 
The witness I want to introduce is Mike Allegra who has worked 
for the Utah Transit Authority for 30 years, and he will tell 
you a remarkable story about an agency that has grown, that has 
met the needs of a growing population and brings projects on 
schedule either on or under budget. They have a tremendous 
track record of being innovative.
    I think that that is instructive for this Committee, to 
hear some success stories. You know often in politics and in 
the news cycle, we hear things that don't go right and things 
that aren't working. Mike Allegra is an individual who has been 
part of a wonderful success story. So I am very glad that he is 
here today to testify before the Committee as you consider 
setting new policy in advance of the next surface 
transportation bill.
    That is why I really wanted to stop by, just to make that 
introduction, and then I hope you will take his testimony with 
great interest, and we can all learn from that.
    With that, Mr. Chairman, I really appreciate your 
willingness to let me come before the Committee to do this, and 
I will yield back my time. Happy to answer any questions, 
though, Mr. Chairman.
    Mr. DeFazio. Oh, good. Then, well, how do you think we can 
finance the need for increased investment in our 
infrastructure?
    Mr. Matheson. I knew you were going to do it.
    Can I just jump in on that one second and say in the State 
of Utah, on transit, we have had a remarkable level of public 
support for both local financing as well as Federal funding? We 
have had two major referenda passed in one of the most 
conservative States in the Country where the voters just said, 
yes, we are ready to step up to the plate and provide funding 
for transportation infrastructure.
    It is partly due to the fact that Mr. Allegra and his 
agency have done such an effective job of letting people know, 
look, this is what you get for what you pay for. I think they 
have a wonderful track record in that regard.
    Thank you so much.
    Mr. DeFazio. I think you identified a key element which is 
the people might be willing to pay more if they can see 
concrete, not to make a pun, results.
    Mr. Matheson. Exactly. Thank you so much, Mr. Chairman.
    Mr. DeFazio. Thanks for taking the time in coming.
    Mr. Matheson. Sure.
    Mr. DeFazio. It sounds like an exciting story we will hear 
today.
    Well, I want to thank everyone for being here. While they 
are setting up for the witnesses, I will just make a really 
brief statement.
    I don't think it is news to anybody in this audience or 
many people in this Country that we have a severe problem with 
our transportation infrastructure. The commission report that 
we received earlier this year is, in a lot of ways, a road map, 
so to speak, of that crumbling infrastructure. I think it does 
an excellent job of documenting the needs.
    Obviously, there is going to be tremendous controversy over 
how we can begin to finance the needed additional investment 
for those needs. So I am hoping that today this esteemed panel 
will help us both flesh the depth and breadth of the needs and 
some possible solutions from your own local experience.
    With that, I would turn to the Ranking Member, Mr. Duncan.
    Mr. Duncan. No. Go first to Mr. Mica.
    Mr. DeFazio. Oh, I am sorry. I didn't see that the esteemed 
Mr. Mica was with us.
    Mr. Mica. Well, thank you.
    I don't want to be taken out of order, but I appreciate the 
courtesy since I too have a witness. I am pleased that she was 
admitted as one of those who will provide testimony to this 
panel. I won't be able to stay but wanted to introduce to the 
Committee, Linda Watson.
    She has a great resume and background in transportation 
over 20 years. She heads up our LYNX which is the Central 
Florida Regional Transportation Authority. She is the CEO of 
that body.
    She has worked in Corpus Christi, headed up transportation 
efforts in both Corpus Christi and Fort Worth, serves on many 
national, regional, State panels and is an expert in 
transportation in her own right.
    She is going to, hopefully, talk today about the challenges 
that many of our metropolitan, smaller urban area transit 
agencies are facing right now.
    Mr. Chairman and Mr. Ranking Member, they are hit with a 
dramatic increase in fuel costs and actually hit with a 
dramatic increase in ridership, and it is creating quite a 
challenge. So she is having to choose between closing down some 
operations where people are struggling to find an economical 
way to get around the community to work and just to get across 
our communities today.
    So I am sure she will address the challenges that she faces 
and that are not dissimilar with other communities and then 
also the challenges--I had a chance to meet with her briefly 
before this--of building transit systems. People, with the 
falling dollar and increasing fuel costs, are looking for those 
cost-effective ways that also provide environmentally 
friendlier means and cost-effective means of moving people in 
all of our communities.
    So, with that, I welcome Linda Watson. I thank you for 
carrying on this work.
    Incidentally, too, I had a chance and recommendation to any 
of you. Last week, I did my little Northeast Corridor tour. I 
had a chance to visit the New York City Long Island to Grand 
Central Station/Second Avenue subway extension underneath New 
York City. They are boring through solid rock the first new 
transportation link, subway link in New York City which will 
eventually connect the JFK air train through the Long Island 
railroad into Grand Central Station.
    But I recommend to all of the members of the panel to get a 
chance to go up there. You go down into the bowels of Manhattan 
and see them cutting through solid rock with the latest 
technology and equipment, a $7.2 billion subway extension which 
is quite exciting for our biggest metropolitan area in the 
Country. So, if you get a chance, I highly recommend that 
visit.
    Thank you.
    Mr. DeFazio. I recognize next the Ranking Member, and then 
we will turn to other Members hopefully. Remember you can 
always put your opening statement in the record.
    Mr. Duncan. Well, thank you very much, Mr. Chairman.
    I will be very brief. I want to thank you for holding this 
hearing on maintaining our Nation's highways and transit 
infrastructure.
    I also want to thank all of the witnesses for providing the 
testimony that I am sure will be extremely important to the 
Subcommittee as we begin the process of reauthorizing the 
highway and transit programs. We have already held a few 
hearings on this subject in anticipation of attempting to have 
a new highway bill out in 2009 without the lengthy delay of the 
last highway bill.
    Everyone in this room, as Chairman DeFazio said, is aware 
of the challenges that our Nation faces in maintaining our 
Country's infrastructure. Most of our interstate highways and 
bridges were built in the 1960s and 1970s and are reaching the 
end of their useful design life.
    Our highways are also suffering from increased wear and 
tear because of the growth in the movement of the freight. The 
volume of freight moved daily has caused more damage to our 
highways than was originally anticipated 40 to 50 years ago 
when our Nation's highways were being built.
    However, the condition of our highways isn't the only 
challenge we face. The large increase in crude oil prices has 
caused many Americans to switch from driving to public transit. 
This sudden increase in ridership will have a big impact on 
mass transit systems around the Country.
    The existing condition of our Nation's transit vehicles and 
facilities is already poor, and this increase in ridership can 
make a bad situation worse in a very short time. It will also 
have an effect on the funding levels for our highways as we 
move into this next reauthorization bill.
    It is frustrating to many on our side that we continue to 
refuse to increase our oil production in this Country. We don't 
have to produce it all, but if we would produce just a little 
bit more, then these foreign energy producers would realize 
that they couldn't keep raising their prices every day. If we 
don't have some increased energy production in this Country, in 
other words, if we don't drill for a little more oil, then we 
are going to run a real risk of shutting our economy down 
because it is already having a tremendous effect on trucking, 
aviation, our farming and everything else.
    So, with that, I will yield back the balance of my time and 
thank you, Mr. Chairman, for calling this hearing.
    Mr. DeFazio. I don't have any requests for opening 
statements on the Democratic side.
    Mr. Duncan. Mr. Boustany.
    Mr. DeFazio. I do now, if people can keep their remarks 
brief.
    Mrs. Napolitano.
    Mrs. Napolitano. Very brief. Thank you, Mr. Chairman. I am 
thanking you for the hearing on what may be our next SAFETEA-LU 
to start laying some of the questions that will help provide 
some of the answers.
    I am very concerned about some of our infrastructure in my 
State and I am sure in other States. We need that investment. 
We need to be able to create the jobs that those investments 
are going to make or bring about.
    There may be a need for a gas tax increase. I don't know, 
but I think your having these hearings will bring a lot of the 
information forth and be able to at least understand a lot of 
what we need to face and America must understand.
    As Mr. Matheson from Utah was saying, people will buy into 
it if that funding is going directly into the project that we 
say it is going to go, and that would be the infrastructure 
repair of our Nation's highways.
    So, thank you, Mr. Chair, and I yield back.
    Mr. DeFazio. I thank the gentlelady.
    Mr. Coble.
    Mr. Coble. Mr. Chairman, I won't take anywhere near the 
five minutes. I will reiterate some of the points that Mr. 
Duncan made.
    Mr. Chairman, as far as our domestic issues pressing us, I 
know of no issue that is any more significant than maintaining 
our Nation's highway and transit infrastructure. I thank you 
and Mr. Duncan for having called this hearing and thank our 
witnesses for being here.
    I yield back.
    Mr. DeFazio. I thank the gentleman for his brevity.
    Mr. Carney.
    Mr. Carney. I will try to be equally as brief, sir.
    I appreciate your holding this important hearing.
    I really want to extend a special thanks to Mr. Biehler, my 
own State's Secretary of Transportation, for agreeing to come 
here. I think your observations and your insights are going to 
add a tremendous amount of gravity to what we are doing here, 
and I look forward to hearing from you.
    Thank you very much.
    Mr. DeFazio. I thank the gentleman.
    Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    As a Member of this Subcommittee and a citizen who drives, 
I am concerned that maybe we ought to think about three 
different things:
    One, the way we design our highways in the United States. 
Maybe we ought to think that through again.
    Second, what are those highways composed of? Maybe we ought 
to think that through and see if we can use other materials.
    The third thing is the price of crude oil should not be 
overlooked in the cost of highway construction because as crude 
oil prices go up, that costs us more to build highways.
    We need to look at those three items as we move down the 
road.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman.
    Okay, Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman.
    I am pleased that we are holding this hearing as part of a 
series of hearings on this immense challenge that we are 
facing.
    I know each of our districts, our States reflect the 
challenge that we see at the national level in how we are going 
to meet shortfalls in funding and also how we deal with the 
Federal-State relationship with highway funding and 
flexibility. I know that is an important issue. I have 
discussed with former transportation officials in my State of 
Louisiana as well as our current transportation official.
    What flexibilities are needed at the State level? How is 
that relationship going to play out as we craft another highway 
bill?
    Finally, just looking at my district where we have immense 
challenges with Interstate 49 which is a major transportation 
route for trucking and particularly for our energy industry. We 
have serious congestion. How are we going to deal with this and 
how we are going to pay for it is a serious concern?
    We have aged infrastructure. One of the key bridges in my 
district on Interstate 10 in Lake Charles, Louisiana, is 
structurally deficient. There is an intense debate going on now 
about safety, about the ongoing transportation concerns and 
also the impact this is going to have on the United States 
because Lake Charles is a major refining center for our 
Country. So this nexus between energy and highways is 
critically important.
    Finally, I want to mention the need for Interstate 49 which 
is a key hurricane evacuation route between New Orleans, going 
north, to get folks out of New Orleans. It is also a key 
commerce and energy corridor.
    This should be a national priority. We have been working on 
this for well over a decade. I would hope that as we craft the 
next highway bill, we will find sufficient funding to complete 
this absolutely necessary piece of infrastructure.
    Mr. Chairman, once again, I look forward to hearing the 
witnesses, and I yield back.
    Mr. DeFazio. I thank the gentleman.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    Mr. Chairman, I am concerned about what is going to happen 
to our funding process in recognizing that we had some $78 
billion worth of congestion costs in 2005. As we look at the 
price of gasoline and, of course, our taxes at the Federal 
level and also our State taxes in South Carolina are based on 
gallons, not price.
    So my concern is as the efficiency of cars becomes more 
miles per gallon, what is going to happen to our source of 
funding? I think I would certainly look forward to maybe some 
solutions from our witnesses, at least some recommendations.
    Also, I would like to bobtail back on what Charlie said 
about Louisiana. We have the same problem in South Carolina. We 
are in the process of planning I-73, and we would like to look 
at maybe some different corridors as we look at the next 
reauthorization bill and include several major corridors in the 
United States to try to relieve some of the congestion we find 
now on our overcrowded interstates.
    Thank you, and I yield back.
    Mr. DeFazio. I thank the gentleman.
    With that, I thank the Members for their opening 
statements.
    We will now turn to our witnesses, and the first witness 
will be the Honorable Pete K. Rahn, Director, Missouri 
Department of Transportation.
    Mr. Rahn.

  TESTIMONY OF THE HONORABLE PETE K. RAHN, DIRECTOR, MISSOURI 
 DEPARTMENT OF TRANSPORTATION; THE HONORABLE ALLEN D. BIEHLER, 
      P.E., SECRETARY OF TRANSPORTATION, COMMONWEALTH OF 
 PENNSYLVANIA; THE HONORABLE LEO BOWMAN, COMMISSIONER, BENTON 
 COUNTY, PROSSER, WASHINGTON; STEPHEN E. SCHLICKMAN, EXECUTIVE 
DIRECTOR, REGIONAL TRANSPORTATION AUTHORITY, CHICAGO, ILLINOIS; 
 MICHAEL ALLEGRA, ASSISTANT GENERAL MANAGER AND CHIEF CAPITAL 
DEVELOPMENT OFFICER, UTAH TRANSIT AUTHORITY; AND LINDA WATSON, 
       CHIEF EXECUTIVE OFFICER, CENTRAL FLORIDA REGIONAL 
                    TRANSPORTATION AUTHORITY

    Mr. Rahn. Thank you, Mr. Chair, Members of the Committee.
    I am Pete K. Rahn, Director of the Missouri Department of 
Transportation and currently President of the American 
Association of State Highway and Transportation Officials. I am 
here to talk about the need to increase investment in the 
Nation's transportation infrastructure.
    We have grossly underfunded both our State and Federal 
transportation systems over the last three decades. If we 
continue this downward spiral, we risk losing our status as a 
global leader as well as precious lives. We must recognize 
China and India are investing hundreds of billions of dollars 
more every year than we are in the United States.
    To put it simply, we must step up now to remain globally 
competitive or we will end up with a second rate transportation 
system and a much less mobile and prosperous society than we 
have today.
    Like most States, Missouri's transportation needs far 
exceed its resources. We have initiated innovative ways to 
shore up our ailing infrastructure.
    With additional funding from a State constitutional 
amendment that directed highway user fees to MoDOT, we have 
improved 2,200 miles of our State's busiest highways in just 2 
years, accelerated 53 critical highway projects and moved ahead 
with $1.6 billion in new construction projects. Road conditions 
have improved on our major roads from 44 percent in good 
condition to 78 percent in good condition during the same 
period of time, but our progress is tenuous.
    Our next priority is improving our bridge inventory. More 
than 800 of Missouri's worst bridges will be repaired or 
replaced within 5 years under the Safe and Sound Bridge 
Improvement Plan. This project is an innovative design, build, 
finance and maintain contract that involves private activity 
bonds to encourage innovative financing and construction.
    The Missouri Bridge Partners Contract Team will finance the 
project's capital cost, estimated between $600 million and $800 
million. Missouri Bridge Partners will also be responsible for 
design and construction of these bridges and structural 
maintenance for at least an additional 25 years. MoDOT will pay 
for the program over 25 years with Federal bridge funds.
    While Safe and Sound will fix more than 800 bridges, it 
will not address our large river bridges that span more than 
1,000 feet. To replace all of the large bridges that need to be 
fixed would cost in excess of $7 billion. To make sure they are 
at least in satisfactory condition would cost $300 million to 
$500 million over 10 years. Either way, we don't have the 
money.
    Innovative solutions and program efficiencies will only go 
so far. What we really need is a significant infusion of money 
dedicated to the Nation's transportation system. At a minimum, 
the Federal-State local funding partnership must continue, and 
the historical Federal share of 45 percent of capital 
investment must be maintained.
    Federal highway funding would have to be increased from $43 
billion in 2009 to $75 billion by 2015 just to restore the 
program's purchasing power back to the 1993 level.
    In addition to more funding, States need flexibility in 
using Federal aid for asset management approaches that can 
significantly extend the life of highways and bridges. If we 
systematically repair, then maintain, pavements and structures, 
they do not deteriorate to the point where they have to be 
replaced.
    We also ask that you make preventative maintenance eligible 
for Federal aid.
    A thorough assessment of the interstate and National 
highway system corridors rehabilitation and construction costs 
needs is critical. The interstate system has more than 55,000 
bridges, many of which are reaching 40 to 50 years of age. 
Bridges and other structures this old usually require 
substantial rehabilitation or reconstruction. As we go out 
another 20 to 30 years, they will require complete replacement.
    I am very concerned that the investment made in 
transportation by our grandparents that have given us 
unprecedented mobility and prosperity is not being made by our 
generation. Our children and grandchildren will not enjoy the 
same economic advantages and quality of life because of our 
refusal to pass along a comparable legacy.
    We must either find ways now to fund a transportation 
system that will ensure economic prosperity or be content to 
sit in traffic and watch our highways crumble because of 
overuse and lack of funding. We can't afford to wait. Jobs and 
lives are at stake.
    Thank you.
    Mr. DeFazio. Thank you.
    We go next to the Honorable Allen D. Biehler, Secretary of 
Transportation, Commonwealth of Pennsylvania.
    Mr. Biehler.
    Mr. Biehler. Mr. Chairman, thank you very much, and I 
sincerely appreciate the opportunity to perhaps tell a little 
story about Pennsylvania.
    But let me just acknowledge a special thanks for the 
introduction by Congressman Carney. It is a pleasure. In fact, 
he is sitting right square in the middle of a target of some of 
the activities that we have been looking at just to raise 
dollars and can sense the frustration and difficulty of our 
challenge, and we are not much different than the rest of the 
States around the United States.
    But let me just try and paint a picture a little bit as I 
see things in Pennsylvania. Obviously, transportation funding 
and infrastructure improvements have always been a challenge, 
but we are seeing in Pennsylvania and, again, not different 
than others, forces that are at work that have caused us all to 
radically change our approach. Let me just give you a couple of 
examples.
    I have had the pleasure of being the Secretary now for five 
and half years or so. In the period from 2003 to 2007, the cost 
of construction increased and inflation related to construction 
has gone up 63 percent in those five years. Never in our 
history have we seen those kinds of increases, and we keep 
looking around the corner, hoping that there is a brighter day.
    As we looked at the first quarter of 2008, we see hot mix 
asphalt costs, in one quarter versus last year, go up 27 
percent. Not surprising, given the petroleum, but it is a huge 
number.
    Next and more frightening has been steel prices. In the 
first quarter, Pennsylvania has seen its steel prices of 
fabricated steel go up 49.7 percent. We are in a world that we 
just don't understand, I would submit.
    Obviously, with fuel prices jumping as high as they have, 
it has been wonderful to see folks flock to transit, but we now 
are watching our transit friends not being able to catch the 
ball, if you will, as their costs have jumped as well. In 
Pennsylvania, about 25 to 30 million dollars more in transit 
fuel costs related to the diesel price increase has been the 
impact.
    Despite some additional dollars for transit over the last 
couple of years, we are finding ourselves in a situation where 
they're just struggling simply to keep up and, ironically, may 
have to cut service because of the increase in diesel fuel 
simply to catch that problem. So, as I say, we are really in a 
different situation.
    From a highway standpoint, we have always, on the highway 
side of things, kind of prided ourselves with trying to keep up 
and deal with congestion issues. Let me just tell you about the 
last three cycles that I have been involved as we updated our 
transportation improvement program, a four-year program we all 
deal with across the United States. The last three cycles in 
Pennsylvania, about 25 or so percent of our program dollars 
were earmarked for capacity improvements or some kind of 
congestion improvements.
    This cycle, because we have been in such a downslide and 
needing to change our business, we are now probably going to be 
in the neighborhood of 10 percent. What that tells you is that 
we have had such dramatic changes in these outside forces, if 
you will, of inflation, that that is where we are.
    Another interesting statistic in Pennsylvania is in the 
last period of time, again, while I have been Secretary, we 
have increased the money we have spent on our bridges. 
Pennsylvania has the horrible distinction of having the highest 
number of structurally deficient bridges of any State in the 
United States.
    We tripled the amount of money we spent on bridge 
construction. Ironically, the number of structurally deficient 
bridges has gone from 5,500 to 6,000 in that same period simply 
because the age of our infrastructure is so high. The average 
age of our bridges is 50 years, and so it is like a huge 
iceberg coming at us. That is our real world.
    As I mentioned, the case of the transit industry is no 
different. In the case of the transit industry in Pennsylvania, 
we have had a recent piece of legislation last year that helped 
the transit industry, especially on the operating side and a 
little on the capital side, but our partners in transit are 
struggling to keep their fleets in decent shape and the rest of 
their infrastructure in good shape. Otherwise, they will be 
slaves to the increased maintenance costs simply to try to 
operate their system because of those issues and, as I say, 
ironically, at a time when transit demand is at an all time 
high.
    Here is what we have been doing to try to deal with our 
problem: As I mentioned, a huge change in the focus of our 
program, resaluting the flag of maintenance and sometimes 
maintenance only, and it is sure not what we want to do. So, 
huge focus on maintenance.
    In the case of our bridge program, my good friend, Pete 
Rahn, is working on trying to deal with 800 bridges over the 
next 5 years. We are trying to deliver in Pennsylvania 1,145 
bridges into construction in the next 3 years. Then in the 20 
months after those 3 calendar years, we are trying to deliver 
another 550 bridges. Simply, our backlog is that awful.
    At the same time, we have to make sure that we are using 
all of our powers to design properly, and so we are shifting to 
a 100-year bridge design. At the same time, we have to focus on 
our highway design to make sure we are delivering the smallest 
footprint possible because the costs will otherwise outstrip 
our situation.
    So the bottom line is we are clearly changing the way we 
have focused our business, and the one scary thing for all of 
us is we just don't know where it is ending. We had hoped that 
our situation was going to get better. It is not getting 
better.
    We clearly have to deal forthright with the revenue problem 
we all face, and it is not an easy one. We know that.
    Thank you very much. I appreciate that. To the extent there 
are questions, I will be happy to answer.
    Mr. DeFazio. Thank you.
    The Honorable Leo Bowman, Commissioner of Benton County.
    Mr. Bowman.
    Mr. Bowman. Thank you. Good morning, Mr. Chairman and 
Ranking Member Duncan and Members of the Committee.
    I am Leo Bowman. I am a County Commissioner of Benton 
County, Washington State. Today, I am representing the National 
Association of Counties where I serve as Vice Chairman of the 
Transportation Steering Committee.
    I want to thank you for inviting NACo to this hearing on 
Maintaining our Nation's Highways and Transit Infrastructure. 
NACo represents the Nation's 3,066 counties that own and 
maintain 45 percent of the total highway mileage in the United 
States, 44 percent of all the Nation's bridges. We also own or 
participate in about one-third of the transit systems across 
the Nation.
    NACo members have made a huge investment in this system, 
and much of what counties do is maintain the existing system. 
For that reason, we agree with the first recommendation of the 
National Surface Transportation Policy and Revenue Study 
Commission: ``The Nation is best served when transportation 
facilities are well maintained.''
    This is certainly true as it applies to the three-county 
region where I serve as Vice Chair of the Benton-Franklin-Walla 
Walla RTPO. Our region occupies 4,216 square miles in the lower 
southeastern Washington State. We have 330 bridges. We have 
3,700 miles of county roads of which only 650 miles are Federal 
aid eligible.
    Our economy depends on these roads and bridges being well 
maintained. Our region produces over $1 billion in agricultural 
products each year. For these products to get to market cheaply 
and efficiently, we must continue to invest in our mostly rural 
road and bridge system.
    Maintaining the system means upgrading roads and bridges to 
standards that enable these facilities to handle today's 
heavier and wider vehicles. Seasonal emergency weight 
restrictions and closings are a serious problem for our 
agricultural economy.
    The other reason maintenance is so important is because of 
safety. We know that nationally 25,000 people die each year on 
rural roads. This is a fatality rate that is two and a half 
times greater than on urban roads.
    In our region, broken or damaged roadway components get top 
priority. Nothing is more important than safety to our elected 
officials.
    Let's talk about financing. Our RTPO forecasts over the 
next 20 years, we will collect $561 million of which we will 
spend $356 million on maintenance. This reflects our historic 
63-37 percent split between maintenance and operations and new 
capacity.
    We also have 546 miles of road which are in need of 
upgrading to current all weather and safety standards. We 
estimate the costs of the improvements to be one-half million 
and one million dollars per mile. While that sounds like a lot 
of money, our engineering staff informs us that these upgrades 
will reduce normal maintenance costs between 80 and 90 percent.
    Almost all of the revenue counties have for maintenance is 
local property taxes and fuel taxes that are shared to us by 
the Washington State Department of Transportation. This is the 
central issue for counties when faced with substantial needs on 
our transportation systems.
    Local governments rely primarily on our own source revenue. 
States do share some fuel tax revenue with locals, but the 
amounts are very small and uneven. Nationally, there are few, 
if any, local fuel taxes, relatively few local sales taxes 
dedicated to transportation, and most counties need to ask for 
permission to levy a new tax.
    As a local elected official of over 11 years, I can tell 
you that raising property taxes to maintain highways and 
bridges is politically unpopular because it is totally 
unrelated to the usage of the system and our citizens see 
little connection between better roads and bridges and 
increasing taxes.
    I would direct you to a recent publication entitled 
Financing Transportation in the 21st Century: An 
Intergovernmental Perspective of which I have a copy for every 
Member here today, which was recently released by NACo and 5 
other state and local government organizations that describes 
this issue in detail.
    What would help? One answer is that more Federal resources 
directed to rural roads and the units of governments that are 
responsible for them.
    The Highway Safety and Improvement Program needs to be 
targeted to those roads that need safety improvements, and 
local governments officials need to be part of the process that 
develops the State strategic highway safety plan, something 
that current regulations do not allow.
    Related to this, the High Risk Rural Road Program needs far 
more funding than the $90 million currently available. Bridges 
on non-Federal aid roads need more funding, and NACo would 
support an increase in the off-system setaside to at least 20 
percent. The Surface Transportation Program rural setaside has 
not been increased since it was instituted in 1991 with the 
ISTEA program. It needs to be adjusted.
    We need an enhanced rural planning process that includes a 
stronger role for local officials.
    And, finally, the project delivery process needs to be 
streamlined so that delays are reduced and the cost for rural 
counties to use Federal funds does not discourage participation 
in the Federal highway program.
    Mr. Chairman, I also serve as the Chairman of the Board of 
Benton-Franklin Transit, our local bi-county transit agency, 
and I would love to answer questions on that issue as well as 
those that I brought forward today. Thank you very much.
    Mr. DeFazio. Great. Thank you, Mr. Bowman.
    With that, we would turn to Mr. Stephen E. Schlickman, 
Executive Director, Regional Transportation Authority, Chicago, 
Illinois.
    Mr. Schlickman. Thank you, Mr. Chairman and Members of the 
Committee.
    The RTA is an oversight agency for Chicago. We oversee the 
operations of the Chicago Transit Authority which is serving 
the core of our region, the Metro Commuter Rail Agency which 
serves throughout the six-county region of Chicago and Pace 
Suburban Bus.
    Maintenance needs clearly are one of the most important 
issues facing my many worries with our transit system. Thus, I 
am pleased to have the opportunity to address this important 
matter before you today.
    Earlier this year, I am proud to say that we were very 
successful in achieving a victory in Springfield in our 
legislature when they provided us over $500 million in new 
operating assistance dedicated to our region. It was only a 
partial victory, however. We had also put forward to them 
billions of dollars in unfunded capital needs which they are 
now seriously considering.
    With an eye towards authorization, Elliot Sander, the head 
of the MTA system in New York, and I formed a loose coalition 
of the largest transit agencies in the Country. All these 
agencies are rail systems, but they also have the most 
extensive bus systems in the Country.
    We call our group the Metropolitan Rail Discussion Group. 
It includes representatives from New York, Los Angeles, 
Philadelphia, Boston, New Jersey, Pittsburgh, Cleveland, 
Atlanta, San Francisco and Washington, DC.
    We have come together to develop authorization principles, 
but we are working within our trade association, APTA, to 
develop a unified industry position. Our group provides two-
thirds of the transit trips nationally, but we receive less 
than half of the Federal funding. Our core principle is that 
the Federal transit program should be allocated according to 
need in order to achieve the maximum impact on issues of 
national importance.
    We strongly believe that the largest transit systems in the 
Nation are best able to serve the national interest of limiting 
the growth of traffic congestion, reducing greenhouse gases, 
improving air quality, promoting energy independence and 
generally providing mobility benefits that support the growth 
of the Nation's economy through the engines of the economy that 
you find in the largest metropolitan areas in the Country.
    The infrastructure maintenance needs of these systems are 
great. We have just begun a process of conducting a transit 
capital assessment of all of our group's members to better 
quantify these needs, and we will submit a report to the 
Committee for the record when it is completed.
    However, we believe that the Chicago regional transit 
system is very typical of our members of our group in the 
larger urban systems. Our strategic plan identified a five-year 
capital need of $16.1 billion to maintain, enhance and expand 
the region's transit system, and there is tremendous support in 
our region for this.
    It is not just a city of Chicago issue. It is a suburban 
and outer suburban issue as well. We have strong support for 
our operating needs and our capital needs as evidenced by the 
success we had in Springfield.
    Of this five-year figure, $10.3 billion would be dedicated 
to maintaining the system. That includes $2.8 billion for 
rolling stock, $2.1 billion for track and support structures, 
$1.4 billion for signals, electrical and communications 
network, $1.8 for improving and replacing support facilities 
and equipment, $1.1 billion for improving passenger facilities 
and $1 billion for other systemwide improvements.
    But of this $10.3 billion maintenance need, only $2.6 
billion is funded. Our transit system is deteriorating, and 
this must be reversed.
    Another issue of concern for large urban transit systems 
has been constrained capacity to deal with increased demand in 
ridership, particularly what we are experiencing with the 
higher prices of fuel. Many of our systems are bursting with 
riders during the peak hours. We need to add capacity to 
existing rail lines and can do so in very cost-effective ways.
    To meet our maintenance and capacity needs, the largest 
systems in the Country rely not just on Federal funding but 
also have substantial State and local contributions. While we 
need to increase Federal capital support, we also need to 
increase funding at the State and local levels.
    While we believe the needs of the largest and oldest 
systems are particularly acute, we recognize that newer systems 
and smaller systems also have importance maintenance needs.
    Mr. Chairman, thank you for the opportunity to testify. I 
appreciate your interest in this important topic, and I look 
forward to your questions. Thank you.
    Mr. DeFazio. I thank the gentleman.
    Mr. Michael Allegra, Assistant General Manager and Chief 
Capital Development Officer, Utah Transit Agency.
    Mr. Allegra. Thank you and good morning, Chairman DeFazio 
and Ranking Member Duncan, for inviting the Utah Transit 
Authority to testify on behalf of all the new rail start cities 
in the United States.
    I particularly want to thank Congressman Matheson for such 
a kind introduction and to the benefit of this Committee, I can 
shorten my presentation because he gave you most of my bullet 
points.
    I just arrived from the American Public Transportation 
Association's rail conference in San Francisco where Speaker 
Pelosi talked about the same themes that you are hearing about 
today: investing in our transportation infrastructure. In fact, 
she was quoted as saying, ``The long-term benefits of investing 
in our infrastructure far outweigh the costs.''
    In Salt Lake City, we opened our first light rail line 10 
years ago. We have since opened two more light rail lines and 
our first commuter rail line, tripling our rail network in less 
than ten years, and we are proud to be one of the most cost-
effective systems in the Country. But it is not enough.
    We are on an aggressive path to double our rail system 
again by 2015, and our local leaders are already talking about 
the need for more transit.
    Utah has recognized that we are facing a transportation 
crisis. The ramifications go well beyond mobility and threaten 
our economic vitality. The business community in Utah, led by 
the Salt Lake Chamber of Commerce, recently supported and led 
the efforts to double our sales tax through a transit 
referendum in Salt Lake and Utah Counties because they 
recognized this transportation crisis and our connection to 
economic development and quality of life.
    Although we are investing over $7 billion in highways and 
transit--it is a multimodal program--we are only about one-
third of the way there in meeting our $23 billion of needs.
    I would like to share with you for a moment some of the 
successes we have had in Utah that the Congressman has talked 
about and make a few recommendations for your consideration 
during the next reauthorization.
    Utah, as you probably know, is one of the most conservative 
States in the Country. It is home to more than 2.6 million 
residents and is the third fastest growing State in the Nation.
    During 2002, we were fortunate enough to host the Winter 
Olympics. The Utah Transit Authority carried more than 4 
million people during 17 days, and it was heralded as perhaps 
the best transportation system ever for the winter games.
    Not only did the games give our community a very unique 
perspective on using public transportation, more importantly, 
it taught us all how to resolve our issues collectively at the 
Federal, local and State levels.
    The rapid growth in our system has been financed by a 
combination of local and Federal funds. The UTA has 
approximately tripled its local revenues in the last seven 
years, and we have secured four full funding grant agreements 
through the Federal Transit Administration.
    The development of our rail system has also created 
approximately $4 billion in transit-oriented development, and 
we believe that Utah, like many of the States in this Country, 
is experiencing a transit renaissance.
    Some of the key factors to our success, I would like to 
share with you:
    Number one, we have built all four of our New Starts light 
rail projects ahead of schedule and under budget.
    Just a month ago, we opened up our first commuter rail 
line, a 40-mile line extending from Salt Lake City to Ogden to 
the north. We completed this project six months ahead of 
schedule and under budget, and our ridership is already 
exceeding our expectations.
    This has happened, number one, by a focus on fiscal 
constraints by our organization but also and perhaps more 
importantly on an excellent relationship with our stakeholders: 
the metropolitan planning organizations, the highways 
departments, and our congressional delegations. It is really 
not anymore about the mortar and bricks; it is about the 
relationships.
    Therefore, we believe that Congress should consider a new 
national transportation policy that allows metropolitan regions 
the flexibility to determine and prioritize their 
transportation needs. As the Interstate Highway System was 
originally designed to connect the Nation's cities, a new 
national transportation policy should be designed to maintain 
the health, vitality and international competitiveness of this 
Country.
    Secondly, the Utah Transit Authority is now embarking on a 
major Transit 2015 Program which is going to build 70 miles of 
rail in the next 7 years. This accelerated program comes about 
by the local support of a referendum and with the great support 
of the FTA Administrator, Jim Simpson, who signed an innovative 
memorandum of understanding with us to allow us to expedite the 
Federal funding process.
    This building of 70 miles, some of them with Federal funds, 
some of them not, will allow us a unique opportunity to 
simultaneously compare the project delivery methods and the 
time required to build by Federal versus non-Federal process. 
We are working with the Federal Transit Administration to show 
them how we might be able to streamline the Federal process.
    As you have heard earlier, in addition to expanding our 
system, UTA recognizes the need to maintain its current 
infrastructure. For example, we have needs to replace 1/13th of 
our fleet every year. That translates to approximately 70 buses 
or $35 million ever year. As a New Starts rail city, we are 
already getting to the point where we need to rehabilitate our 
rail vehicles.
    The fixed guideway modernization program in its current 
form is heavily skewed towards Tier 1 cities or older cities. 
UTA recognizes that these systems have been built 50 to 100 
years ago and have significant maintenance needs.
    However, we recognize that the transit world has changed 
dramatically since this rail modernization program was created 
and, like UTA, there are a growing number of cities that have 
had rail system built in the last 10 to 20 years. These newer 
rail systems are beginning to face significant maintenance 
challenges as well and, as such, we believe the rail 
modernization program should be updated to reflect this new 
reality and changes in the transit industry.
    Additionally, we recognize the need for adding current 
capacity. One of the unique things we have done in Utah is 
bought used rail cars to quickly expand the system and to 
provide it on a less expensive basis, and we believe that has 
saved millions of dollars for the taxpayers of our community.
    So we believe that the current formula program needs to be 
considered in terms of adding what is typically called, in the 
industry, core capacity.
    In closing, I would like to make some suggestions for new 
rail start cities:
    We would recommend that Congress retain an 80 percent 
Federal funding ratio for all capital projects especially the 
New Starts program. I don't believe that the Utah Transit 
Authority would be where it is today without the heavy infusion 
of Federal dollars, at least for our first project.
    Congress should create incentives to increase State and 
local investments in public transportation and support 
innovative financing to leverage funding from all sectors.
    UTA encourages Congress to look at new or revised programs 
that assist in maintaining the systems that we own and to 
develop a new program that provides resources for systems to 
quickly expand their capacity.
    Finally, UTA supports the recommendations that will be soon 
coming out of APTA to provide a significant increase in the 
Federal transit program with a total investment of no less than 
$123 billion over the 6-year authorization that would support a 
doubling of ridership over the next 20 years.
    Thank you very much for this opportunity to speak to you, 
and I am happy to answer questions afterwards.
    Mr. DeFazio. Thank you, Mr. Allegra.
    Next, we would have Ms. Linda Watson, Chief Executive 
Officer, Central Florida Regional Transportation Authority.
    Ms. Watson. Mr. Chairman, Members of the Committee, thank 
you very much for the opportunity to testify to you on the 
challenges of a bus-only transit system.
    I have been asked to testify today on the maintenance needs 
of the bus system in Central Florida, but you will find most of 
what I have to say will apply to any transit system that 
includes buses. I will also address some of the challenges we 
face and the role of Federal funding and policy decisions on 
the operation of our system.
    LYNX is the business name for the Central Florida Regional 
Transportation Authority, the agency responsible for providing 
transit services in three counties in Central Florida, and it 
also includes the City of Orlando. We serve a resident 
population of 1.8 million in a 2,500 square miles service area, 
the size of the State of Delaware.
    When you consider the 50 million annual tourists that visit 
our areas and the cars that they rent to get around there, our 
traffic congestion and lost time in traffic increases every 
single day.
    LYNX provides transportation services to this large urban 
area with only 290 buses which is well below the number of 
buses used in peer cities, anywhere from 100 to 300 fewer buses 
than some of our other peer cities.
    A burden of a lack of buses forces 90 percent of our routes 
to operate on 30 or more minutes frequency. This is occurring 
while our customers are standing at one of our 5,000 bus stops 
of which only about 500 have shelters. It is extremely 
difficult to take someone out of their automobile when the best 
alternative that you can present to them is a wait of an hour 
and a half or more before their next bus arrives.
    Despite the small fleet we operate, the infrequent service 
and the lack of shelters from the intense Florida sun, LYNX has 
seen ridership increase 24 of the last 25 years, the only 
exception was right after 2001 at September 11th, 2001. 
Ridership is up 7 percent for the first quarter of this 
calendar year, and that is in addition to a 17 percent fare 
increase that we just implemented in January.
    Central Florida's population is going to double from 3.5 
million to 7.2 million by 2050. The State of Florida will soon 
surpass New York as the Nation's third largest State.
    Our transit system in Central Florida, as well as other 
systems in the State, are woefully unprepared to meet this huge 
demand and provide the transportation necessary to get our 
workers to work and to move our citizens within the community.
    If we are unprepared to move our people within our 
communities, how can we be prepared to compete globally in 
terms of transportation?
    Federal funds have been absolutely essential in building 
our capital program including a downtown 24-hour transfer 
station, an office tower, a 250-bus maintenance garage and 4 
super stops. What we have been unable to do, though, is 
maintain these facilities. This is where a policy change is 
needed to help bus-only systems build the systems of tomorrow.
    As you know, rail systems have a rail modernization formula 
funding program which allows them to be able to rely on a 
consistent annual source of funding to keep their systems safe, 
secure and clean. This allows them to not only contain 
operating costs but enhance the transit trip for their 
customers.
    On the other hand, our 13-year super stops need repairs, 
improved lighting and security. Although we can use our Federal 
formula funds for doing this, we have the tough decision to 
make about replacing buses that are well beyond their 
retirement age or maintaining facilities and improving these.
    As America competes in the 21st Century, the Nation's 
policymakers have to create a new strategy, a new foundation 
for keeping the United States the driving force in the global 
economy. A well-planned, highly-coordinated rapid transit 
system can be that foundation.
    Just as public policy in the 1950s pushed American toward a 
car-centered transportation system, public policy in the new 
millennium can push America toward a transit-centered 
transportation system. With that in mind, I would like to 
recommend consideration of the following public policies:
    One, create a separate funding formula category for bus 
maintenance similar to the rail modernization formula program. 
This would allow bus systems to maintain their fleets and 
facilities without competing with capital needs.
    Number two, dramatically increase capital funding to 
transit to stimulate the development of a national and local 
rapid transit system. The vision for this rapid transit system 
should be one that connects major cities as seamlessly as the 
current highway system does. The local transit system should be 
a combination of rail and bus that removes the need for a car 
when in an urban area.
    The third one is to create funding incentives that force 
local governments to develop smart growth plans such as high 
density development around multimodal transit systems.
    Four, fund bus-only lanes on both interstate highways and 
major transit corridors in metropolitan areas.
    Five, increase funding for 5316, Job Access and Reverse 
Commute. As fuel prices continue to rise, the population 
attempting to return to and stay in the workforce is rising, 
and they are further reliant on public transportation.
    Increase funding for 5317, New Freedom Program. America's 
population is aging and, as gas prices are soaring, that can be 
a lethal combination for a segment of the population that is 
used to being mobile.
    So it seems obvious that a car-centered transportation 
system that worked so well for us in the 20th Century is 
failing us now. We have to find a new effective way of dealing 
with soaring fuel prices and time consuming congestion and 
pollution.
    Transit is the solution for the 21st Century. It will take 
bold policy decisions to get people out of their cars, but it 
was bold policy decisions in the 1950s that got them into the 
cars in the first place.
    China spends 9 percent of its gross domestic product on 
infrastructure, and India spends 8 percent. The United States 
is heading in the wrong direction and spending less than 1 
percent, and we have a multi-trillion dollar backlog in 
deferred transportation infrastructure needs.
    Perhaps a more balanced funding of highways and transit 
would give people a real choice and, at the same time, reduce 
congestion, reduce pollution and reduce our addiction to the 
automobile.
    Thank you, sir.
    Mr. DeFazio. Thank you.
    We will turn now to questions.
    I appreciate all of the testimony. It was helpful, and it 
laid out a number of the issues the Committee has to deal with 
in approaching reauthorization.
    One thing I heard from both Missouri DOT and the 
Commonwealth of Pennsylvania has to do with the issue of 
flexibility, capital investment versus maintenance. I guess the 
question, first to Mr. Rahn, would be you have identified 
capital investment backlog, as most everybody else has, and yet 
you are saying you would like to see more flexibility in the 
Federal funds.
    We already started, in the seventies and eighties and 
particularly more recently, giving more flexibility as the 
Federal interstate system was completed in allowing States to 
divert money to preventive maintenance. I am not exactly 
certain why or what additional flexibility you feel you need 
particularly given the capital investment backlog.
    I just don't quite understand what you are getting at 
there. Why don't you tell me? What is it you feel is a real 
constraint today? Be pretty specific. How would you differently 
use the Federal funds and make the decisions between capital 
investment and maintenance that you can't do today?
    Mr. Rahn. Mr. Chairman, the flexibility that we would like 
is among these various programs, there are different 
restrictions on any one of these 108 Federal funding 
categories. Some have the flexibility to use within the arena 
of preventive maintenance, and some do not. And so, we are 
constantly playing a game as to which funds can you move into 
which area to actually deal with the problems.
    You still have to have a discussion and debate with the 
Federal Highway Administration as to the actual definition of 
what is preventive maintenance versus an ongoing maintenance 
activity. It is very muddled, and it often is determined by the 
personality of the Federal Highway Administration official that 
you are dealing with as to eligibility of one activity over 
another.
    A clearer, broader statement of eligibility for these funds 
across the board would be more helpful and productive to the 
management of our systems.
    Mr. DeFazio. So you are not asking for a block grant or 
something. What you are saying is that there are 
inconsistencies. There are way too many stovepipes. You would 
like to see fewer stovepipes with clearer guidelines on how the 
money can be moved.
    Mr. Rahn. That is correct.
    Mr. DeFazio. Okay.
    How about from the perspective of Pennsylvania on that 
issue?
    Mr. Biehler. I would concur with that. There is a much 
smaller number of programs, but still a certain flexibility 
between those programs probably makes the most sense.
    As I deal with my AASHTO colleagues around the United 
States, we certainly see that Pennsylvania's preservation needs 
may have some similarities to other States. But, boy, our needs 
are certainly different, and the flexibility really will help 
all of us to then tailor those programs to our specific issues.
    Mr. DeFazio. Given the fact, again, the refrain from 
everybody, and I would expect that there isn't enough money 
either at the State level or the Federal level. I mean all 
together. You are looking at innovative ways to enhance that.
    Given the inadequacy, should the Feds perhaps choose a 
priority and say, look, we want to target more of our money to 
new capital? Is that a discussion we should be having here?
    Mr. Biehler. I think it is a great question. The reason I 
think so is I think there is clearly a national agenda we all 
have to struggle with as we turn the corner toward 
authorization.
    I, personally, think there is a very strong need for a very 
strong national agenda. We need to think through because we are 
not just talking about preservation. We really are talking 
about greenhouse gas and very, very difficult issues, needing 
to shift people away from our current transportation modes and 
find a way to shift more freight moving from highways to rail 
and so on.
    My colleague, Linda Watson, talked about the importance of 
an intercity rail system and those kinds of things. I certainly 
concur with that. So we have a number of different things.
    I believe in a strong, strong national agenda if we are 
going to be able to keep ourselves globally competitive in 
addition to then having a sustainable environment.
    Mr. Oberstar. Mr. Chairman, would you yield?
    Mr. DeFazio. Certainly, I would yield.
    Mr. Oberstar. It is a very, very important policy issue 
that we are going to be facing not just on the transit side but 
on the highway side. That is the distribution of dollars 
between capital investment, a one-time investment by the 
Federal Government in its partnership with State and local 
governments in which the non-Federal partner commits to do the 
maintenance.
    It was a very long time before we came to the interstate 
maintenance category in the Federal highway program. The 
interstate program was 90-10: Federal, 90 percent; State, 10 
percent. Then, it is yours. States, you maintain it. Twenty 
years, 25 years later, we came to establish a maintenance 
account.
    Now, after many years of investing in transit systems on 
the capital side, now we are hearing a request for more 
flexibility for the States and for local governments to use 
funds for maintenance as we are hearing an increasing appeal 
from States to use more of their funds for maintenance.
    Maintenance could swallow up the whole Federal Aid Highway 
Program on the highway side. How much do you think it would 
swallow up if we gave the flexibility?
    Say, just blanket, we gave the flexibility to metropolitan 
areas to use money for capital investment or for maintenance, 
how much would be swallowed up in maintenance?
    Mr. Biehler. You are probably right. If we don't have very 
clear goals, we could probably use the entire allocation for 
maintenance.
    I think you are exactly right, which means that it seems 
from my standpoint that we have to, as clearly as we can. This 
is not easy stuff, not for the faint of heart, but as clearly 
as we can identify what those goals are and what we want to 
adhere to on a Federal basis.
    So it probably means we have to think about hierarchies of 
systems. The National Highway System means something. 
Certainly, we need to think about continuing intercity freight 
movement, intercity passenger movement and decide what is a 
reasonable partnership between the States and the Federal 
Government and then within the States, the counties and the 
municipalities.
    I think that you are exactly right. It is those kind of 
focuses and thoughts we need.
    Mr. Oberstar. Mr. Rahn, briefly.
    Mr. Rahn. Mr. Chairman, just briefly, I believe the heart 
of your question is indicative of the amount that we have 
underinvested in transportation over the decades. The problem 
is today that we have this huge backlog in capital needs. We 
have a huge backlog in maintenance needs.
    I think the fact that you could take the entire Federal 
program and have it swallowed up in maintenance is just simply 
the fact that we have underinvested for three decades.
    Mr. Oberstar. I agree with that, but we are now at the 
point of a new program. Mr. DeFazio, Mr. Duncan, Mr. Mica and I 
and all the Members of the Committee are going to have some 
very difficult decisions to make.
    States repeatedly ask Congress for flexibility in the 
transportation program: give us more categories, more 
flexibility. Let us draw down money out of our bridge program, 
for example.
    And, what have they done in the last four years? They have 
taken $4.5 billion out of the capital account of the bridge 
program and distributed it elsewhere, and then a bridge 
collapsed in Minnesota.
    Then what did they do? They turn around and blame the 
bicycle program for a bridge collapse in Minnesota. That is 
baloney.
    Now we want to have a balance here, and we are not going to 
have unlimited dollars to deal with even though I hope we get 
as close to the recommendation of the Commission as possible, a 
50 percent or better increase in investment. But this pull, the 
yin and yang between capital investment and maintenance, is a 
matter of high policy significance that we are going to have to 
belabor our way through.
    Thank you for the time, Mr. Chairman.
    Mr. DeFazio. Thank you, Mr. Chairman, for helping sort of 
refocus my question.
    So I would direct to Mr. Schlickman and Mr. Allegra the 
same question as modified by the Chairman here because I think 
we see the same question and conflict with transit and you two 
also.
    I went to Chicago and had an appalling video presentation 
on the state of the L. I saw sections of the L that are kind of 
held up with two by fours. Well, but I mean they are supported. 
It was a mess, and they are running the trains at limited 
speeds.
    So you can make an argument for the heritage systems need 
the investment, but then Mr. Allegra makes the argument that we 
need to expand opportunities in Western States, in growing 
States. Then that goes to the Chairman's question. So if you 
could both briefly address that, and then we will move on to 
Mr. Duncan.
    Mr. Schlickman. Let me clarify. The largest, oldest systems 
that I work with, they are not just old systems. They are new 
systems as well. I mean over the last 20 years these systems 
have been attempting to address the demand for more transit 
throughout their areas due to growth.
    So the growth isn't just occurring in the Western States or 
the Southwestern States. It is occurring in the older cities, 
in the Northeast, the Midwest and even on the West Coast. We 
really represent all the need that has been discussed here on 
the transit side.
    With respect to where the Federal Government emphasizes its 
investment in new versus maintain, I think you have to step 
back first and ask how are you best trying to serve your goals 
addressing those issues of national importance in terms of 
climate change and clean air and energy independence and let 
that guide you as to how you set your priorities.
    Clearly, we have to maintain these systems. These systems 
are, as I said in my testimony, providing over 60 percent of 
the ridership, and that ridership is dramatically growing into 
the future.
    I would also caution you, though, to make sure you do not 
create disincentives for State and local investment. We are not 
coming to the Federal Government to solve all of our needs, but 
we have been relying on a Federal program solely for the last 
five years on our capital program.
    Our match is provided by toll credits. As you know, toll 
credits is not real money. That created a big disincentive for 
our State to really address the match requirement they should 
have stepped up and done. So I really caution you in that 
regard.
    Mr. DeFazio. Just again, to follow up on the Chairman's 
question, if the Federal Government gave you total flexibility, 
could the amount of money you are getting from the Federal 
Government be easily swallowed up just by your maintenance 
needs?
    Mr. Schlickman. Yes, but----
    Mr. DeFazio. I know, but we are trying to magnify or 
quantify the problem.
    Mr. Schlickman. Yes, it could.
    Mr. DeFazio. Mr. Allegra, very quickly.
    Mr. Allegra. The short answer would be pretty soon. We 
haven't reached that point yet.
    We are very cognizant of the fact that we need to maintain 
our facilities and our services that we operate. Annually, at 
our organization, our board requires us to develop and relook 
at a 30-year plan. Every year, they adopt a new plan to make 
sure that we are indeed investing and reinvesting in the 
systems that we built and the necessary rehabilitation of the 
systems that we own: buses and rail.
    I think, as I mentioned in my testimony, the core capacity 
issue is also one that is troubling to us as we are seeing 
double digit increases in our ridership. We are struggling with 
the ways that we can add capacity to the systems that we have 
already built. So we are looking at many innovative and 
creative ways, and we are trying to leverage the Federal 
dollars as best we can with the resources we have locally as 
well as other programs such as transit-oriented development and 
other types of programs that would help maintain that base.
    But from our organization's perspective, it is vital and 
fundamental. As we have mentioned, replacement of the buses 
every 12 to 13 years, it is automatic. It is a part of our 
program. We recognize we have to do that.
    Our rail system now is approaching 10 years old, and we are 
beginning to reach the mid-life time period to renovate those 
light rail vehicles. We have an aggressive program in place to 
look at that and a financing plan to do it, but those needs are 
going to continue to grow.
    Mr. DeFazio. Okay. Thank you.
    Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    I will just mention one thing before I get to my questions. 
We spent several years in this Committee working on the last 
highway bill which was unfortunately delayed, and we are trying 
to avoid that in this next highway bill. But we worked on a 
bill that was supposed to cover six years, and it was $286 
billion which comes to about $47.5 billion a year.
    When everybody today has said that we need much more 
investment in our highway and transit systems in our Country, 
three weeks ago, there was a front page story in the Washington 
Post that said that we had a $295 billion cost overrun in just 
the Pentagon's 72 largest weapons systems. That didn't count 
the cost overruns that might have occurred in the thousands of 
other large, medium and small contracts that the Pentagon had.
    Yet, we just blink our eyes about that, and the Pentagon 
knows that we are going to keep on giving them big increases no 
matter how wasteful and inefficient they become because both 
parties are falling all over themselves, trying to prove how 
patriotic they are. It seems to me it is a blind patriotism 
that says we are just going to keep on giving these huge 
increases to the Pentagon at the expense of all the other needs 
in this Country.
    We had a report last week on the defense bill that said we 
are going to spend $711 billion this year, more than all the 
other nations of the world combined, trying to maintain this 
empire across the globe--once again I will say--at the expense 
of all of these needs that we have in this Country.
    I will say that even with the feeling that I have that 
national defense is one of the most important and legitimate 
functions of the Federal Government, but you can't give anybody 
everything that they want and just cheat everybody else.
    Mr. Rahn, I am curious as to exactly what is the Missouri 
Bridge Partners. We always hear in this Committee about 
innovative financing, yet that is one of those terms. Everybody 
is in favor of innovative financing, but I would like to know 
if you have used that.
    Have you used innovative financing, whatever that is? I am 
sure it means different things to everybody, but have you used 
that on some project and would you tell us specifically how 
that worked on a specific project?
    Mr. Rahn. Mr. Chairman, the Safe and Sound Bridge Program 
is, in fact, one of those innovative financing projects. For 
the most part, innovative financing means we have borrowed the 
money, and we are paying for it in a way other than normal, but 
in the end we have borrowed money.
    I would just add that our organizations run the same as 
many family households. It is that you would like to pay as you 
go. When you can't pay as you go, you borrow. If you borrow too 
much, you go bust.
    All around the Country, we are borrowing as organizations, 
and I think it is an indication that we no longer can pay as we 
go. We are looking for some solution, somehow, but they are 
short term. They don't represent the long-term answer to our 
transportation needs. Ultimately, we have to have more money.
    The Missouri Bridge Partners and the Safe and Sound Program 
is one in which we kept falling behind in our bridge 
conditions. We are deficient. The number of our structurally 
deficient bridges kept growing even though we were putting more 
and more money into it, and we wanted to come up with a radical 
approach to somehow get in front of the curve on our bridge 
inventory.
    And so, we took 802 of our structurally deficient bridges 
that were environmentally clean, meaning there were not 
environmental issues associated with them and there were not 
highway safety issues with the bridge. The problem was just 
simply they were old and crumbling.
    So we took these 800 bridges. We put it into a single 
proposal asking industry to come with a proposal in which they 
would design the bridge replacement or rehabilitation 
structures. They would then build them, and they would finance 
those for a period of 25 years. During that 25-year period, 
they would be also responsible for the maintenance of those 
bridges and their ultimate condition.
    So they needed to bring these 800 bridges up to a good 
condition within five years. They then needed to maintain in a 
good condition for 25 years. At the end of 25 years, they 
needed to still be in a good condition.
    In this way, we really are taking a huge portion of our 
deficient bridge structure out of that condition.
    Mr. Duncan. I have questions for all the other witnesses, 
and so I need to move on quickly. On the borrowing part that 
you mentioned a while ago. How does your borrowing now compare 
to, say, 10 or 15 years ago?
    Mr. Rahn. We are borrowing much more today than we did 10 
years ago.
    We are using the private activity bonds. You were asking 
about innovative financing, and I just wanted to mention that 
we are utilizing private activity bonds in which the Missouri 
Bridge Partners, which is the private sector team that has been 
selected to do this work, they will use utilize private 
activity bonds which means they can borrow money at tax-exempt 
status and utilize by a private entity for the benefit of a 
public sector.
    Then the fact that they borrow the money and we are going 
to pay it back to them falls into this innovative financing.
    Mr. DeFazio. I just wanted to follow up on the Ranking 
Member's question. I read the proposal. I was a bit puzzled 
because you have an initial period where you don't pay them 
anything up to 2012 or something like that, and then you would 
begin to make payments from that point forward.
    What is their rate of return? I mean they have this private 
activity bond which lessened their cost, but what rate of 
return or what interest payment essentially are you paying?
    Mr. Rahn. We are still at the tail end now of the 
negotiations for contract. We anticipate a contract within the 
next three weeks. So we still don't have all of that that I can 
disclose publicly.
    Mr. DeFazio. Right.
    Mr. Rahn. But what I can say is that, number one, we have 
decided that we are going to make some interim payments during 
the five years because the capitalized interest costs were just 
too great.
    Mr. DeFazio. Right. You are going to carry that all 
forward. We have heard about those kinds of loans recently. A 
lot of people had them.
    Mr. Rahn. Exactly. So we have decided that we will make 
some payments based on performance milestones. They are going 
to have to have 150 bridges complete before we will make a 
payment.
    Mr. DeFazio. Right. So you are not going to carry all of it 
with deferred interest forward.
    Mr. Rahn. Right.
    Mr. DeFazio. But you are still going to have some sort of 
interest.
    Mr. Rahn. Yes.
    Mr. DeFazio. I would just be interested in the details when 
you finalize the contract, and I realize if you are in 
negotiations, you don't want to. But when you conclude that, I 
would be interested because I would like to see a comparison 
between what it would have cost your State to go out and borrow 
that money straight up front and do the work and what you are 
going to get out of this for a rate of return of interest cost 
in this deal.
    I realize there may be other attributes to it in terms of 
volume or whatever.
    Mr. Rahn. Speed. It is speed plus the fact that we are 
transferring all of the risk of inflation to that team. We lock 
in the prices for these next five years.
    Mr. DeFazio. Right.
    Mr. Rahn. But the rate of return, I will be able to answer 
that question. Because of private activity bonds, the 
difference between the two is not as great as you would expect.
    Mr. DeFazio. But anyway, we will. I think we will have more 
questions, and perhaps we will direct them to you in writing as 
you complete the negotiations.
    I am sorry. Thank you. I thank the Ranking Member for that.
    Mr. Duncan. Oh, that is all right. Those were good 
questions.
    Secretary Biehler, do you want to make a comment?
    Oh, okay. Well, let me ask you this, Mr. Secretary. 
According to your testimony, since 2004, your Department has 
moved investments from increasing highway capacity to just 
trying to keep the system maintained and in good repair. How 
much of a shift are you talking about and is that going to 
increase in the future?
    What impact has this had on your system and what do you see 
in, say, the next five years or so?
    Mr. Biehler. Yes, clearly, we have made a major shift. We 
had been devoting in the neighborhood of 25 or so percent of 
our revenues to capacity and congestion relief, physical 
improvements, and then in the series of the last 3 updates of 
our program, we are probably going to be closer to about 10 
percent. We just had no choice.
    We had no choice because of the deterioration, simply 
keeping the pavement in the case of our highway system in 
decent shape and also the tremendous backlog and structurally 
deficient bridges. With a bridge, it would have to be weight-
restricted or closed, potentially shutting off emergency access 
to neighborhoods. There is no choice.
    So we are moving that way, and I don't know whether the 
next update will be at 5 percent and down to nothing. I 
honestly don't know. It is really going to be dependent on 
where inflation goes and then where our revenue sources are.
    Unfortunately, well, obviously as with many States, we are 
dependent on gas tax revenue. I just got a report last night 
that our current 2007-2008 budget which ends at the end of 
June. We just got an update that we are going to be facing 
something like $99 million less in gas tax revenue simply 
because of less use and projected to be about 109 for the next 
year.
    Obviously, the message is stay tuned because we don't know 
where gas prices are going.
    So those are the kinds of drastic changes we have had to 
react to. We have no choice. We have, in fact, reacted that 
way. It is not the right answer, but it is what we have had to 
do.
    Mr. Duncan. Well, let me ask you this. I know that over the 
last 30 or 40 years you have lost several Members of Congress 
due to population decreases or faster population growth in 
other States. Do you know what the projections are for 
Pennsylvania?
    Are you going to continue to lose population and have you 
factored that into your projections for the future? What are 
the projections?
    Mr. Biehler. We are at about 12 million population in 
Pennsylvania, and we have been in a 1 to 2 percent growth.
    Now it really, obviously, depends on where you are in the 
State. If you are close to the eastern portion of the State or 
the southeastern portion of the State, the megalopolis increase 
is clear. There have been population increases in that area 
and, in other parts there have actually been decreases.
    But in terms of the long term, clearly, we have been 
attempting to project ahead what our current revenue sources 
will produce certainly related to change in people's driving 
habits and so on. That is why. Next year, the budget was 
submitted just a few months ago. We are getting such surprises 
because of the rapid rise in diesel fuel and gasoline, and we 
have had to make adjustments.
    As I say, we are really in a volatile period as we all 
know.
    Mr. Duncan. All right. I have questions for all, but I will 
stop with Commissioner Bowman.
    Let me ask you this, Commissioner. On average, how much of 
your funding comes from the Federal Government as opposed to 
State and local sources?
    I read a few days ago that two-thirds of the counties in 
the U.S. were losing population. That surprises people in my 
area because I am in a fast growing area. But your county, is 
it growing and what do you think we should do?
    It seems to some of us we need to direct more funding to 
the fast growing areas than the areas that are losing 
population. How do you see this not only in relation to your 
county but in relation to your entire State?
    Mr. Bowman. The State of Washington, I believe, is in 
definite growth mode. We, in Benton County, my county, we are 
experiencing around 2.5 to 3 percent as we have for the last, 
basically, 20 years. We are only up to 166,000 in my county.
    My transit agency serves bi-county, mostly bi-county, and 
we have a population right at 200,000 for this transit system. 
Our growth is controlled, but it is very good and it is strong, 
and our economy is good and strong at this point.
    Our transit agency, we have made a decision that we would 
not get involved in a death spiral on borrowing. We owe no 
dollars to anyone for any reason.
    We maintain all of our maintenance and operations through 
fares as well as we just doubled the cost. The citizens just 
imposed doubling of their sales tax dollars that goes dedicated 
to transit, and we just raised our transit fees by up to 20 
percent.
    We continue to have growth, 32 percent within the last 5 
years since the imposition of an additional three-tenths of a 
percent sales tax. In just the last month of April, we had a 20 
percent increase in utilization even after a February increase 
of the 20 percent boarding fee.
    So those types of things, we just don't get involved in. We 
try not to get involved in them.
    Mr. Duncan. How much of your funding is Federal as opposed 
to State and local?
    Mr. Bowman. For transit or for highways?
    Mr. Duncan. Both.
    Mr. Bowman. That is a really good question. I will have to 
get back to you in writing on that, if I could. Yes.
    Mr. Duncan. All right.
    Thank you very much, Mr. Chair.
    Mr. DeFazio. I thank the gentleman.
    I am going to briefly recognize the Chairman, and then it 
will be Mr. Sires' time.
    Go ahead.
    Mr. Oberstar. Thank you, Mr. Chairman, and I really 
appreciate your questions, your opening statement.
    And, Mr. Duncan, when the Ranking Member was talking about 
the cost overruns in the military budget, I can only say amen 
to his observation about that issue.
    If we had had the same proportion of overruns in 
transportation, there would be a national outcry and criminal 
investigation going on in every transit agency and every 
highway department in America. But if it is in the military 
budget, it is all right. Well, it is not all right there, and 
it is not all right anywhere else.
    Now this panel has given us some very important testimony 
which I greatly appreciate. But I want all of you to come back 
to the point that Chairman DeFazio started on and I elaborated 
which is that of a proper balance between Federal funds for 
capital investments and maintenance and what is the appropriate 
national policy and appropriate balance in the partnership 
between the Federal Government and, in the case of highways, 
States and, in the case of transit systems, local governments.
    Ms. Watson, you gave a very clear six-point statement of 
issues you would recommend for us, one of which really caught 
my attention because I was talking about it all this past 
weekend at various transportation events in my district and I 
have been elsewhere, and that is the relationship between land 
use and transportation. We see it in aviation. We see it in the 
highway program. We see it in the transit program.
    You focused on: ``incentives that force local governments 
to develop smart growth plans, high density development around 
multimodal transit systems.''
    We have seen the effect of capital investment clustered 
around transit stops on the light rail systems of this Country. 
The Dallas Area Rapid Transit is one, nearly a billion dollars 
clustered around 20 stops on the DART West. Before they even 
started on DART East, there was $125 million of capital 
investment announced for the planned stops along that system.
    Here in Washington, D.C., over $25 billion in capital 
investment clustered around stops.
    That investment and we can go system by system all around 
the Country, which I won't do, and point out how transit has 
attracted development, but we need to take the model, turn that 
model around and establish the land use policy first.
    I visited a community that required a developer to put in 
the bike lanes, to put in the pedestrian walking paths, to put 
in stops for bus service before they even plotted out the land 
they are going to develop for housing and for shopping centers. 
It required Wal-Mart in planning its development to put in 
bicycle access, bus access before they began their development.
    What incentives do you recommend that we might include in 
the next transportation bill to encourage and to stimulate 
wise, smart growth, compact growth, land use policy connected 
to multimodal transportation systems?
    Ms. Watson. I think perhaps maybe something similar to what 
has been done with the highways system. When the highways were 
built, Federal funds were made available for the construction 
of those and, maybe knowing or not knowing, that created in 
many senses the suburbs and that kind of sprawl development.
    Mr. Oberstar. Really, in the development of the interstate 
program, first, a national plan was laid out to connect cities 
of 50,000 population or greater. That was not a land use plan. 
That was connecting with what already is. We need to prevent 
the sprawl.
    Ms. Watson. Yes, and everything you have said, I would 
agree with. I think we are very similar in thinking on that.
    There is a lot of people moving into the inner cities, 
whether they are baby boomers or X/Y generation. People like 
the dense development and walkable communities where they can 
work and attend entertainment events in similar areas.
    I believe the communities that are doing the smart growth 
planning that is friendly to our environment could be 
incentivized with funding available for transit facilities, 
assuming they have those comprehensive development plans that 
encourage and develop that kind.
    Mr. Oberstar. I would like to ask all the other members of 
the panel to comment, but I don't have time. I have to go to 
other transportation issues and have to curtail my questioning.
    But I want all of you to think about this. You are all 
premier thinkers and leaders and policy implementers in your 
respective roles, and we need your thoughts. Supplement your 
testimony.
    Help us to get to the New Jersey model. Ten percent of all 
transportation in the State of New Jersey is by transit. They 
have achieved the national goal that we should set for America.
    If we achieved a 10 percent mode shift to transit, we could 
save all the oil, the equivalent of all the oil we import from 
Saudi Arabia. That is 550 million barrels a year. Multiply that 
by $130 plus a barrel. That is a huge savings.
    The cost to get there is minuscule compared to the cost we 
are sending overseas.
    Mr. Chairman, I will have to suspend there. I would love to 
pursue this further. I know I just get exasperated that we are 
not further along than we are in this Country with our surface 
transportation.
    We have come a long way from the day I remember when I was 
on the staff here, and the Congress started the Urban Mass 
Transit Administration. I remember the critics who said, what 
do you mean we are going to start bussing Catholics to church? 
It took a long time to get over that.
    [Laughter.]
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman.
    I think Chairman Oberstar raised some very good historical 
points earlier about priorities.
    Then in some of that discussion, Mr. Rahn, you mentioned 
the 108 different programs and the need for clarity, and 
perhaps that is something this Committee needs to look at as we 
go into the next highway bill in providing more clarity about 
those guidelines, about what constitutes preventive maintenance 
versus repairs and so forth, and we need to provide the 
oversight to make sure that the Department is doing what it is 
intended to do.
    I want to step and sort of take the 30,000-foot view for a 
minute. Clearly, we have funding issues at the local, State and 
Federal levels. When you have that kind of scarcity with 
increasing costs and unpredictability on commodities such as 
asphalt, cement, steel and so forth, when you have scarcity, 
you need a good strategy, a good strategic plan.
    Are you satisfied? Are each of you satisfied with the 
strategic plans in your respective States and could you 
highlight any deficiencies you see in those strategic plans? I 
will let you each comment on that.
    Mr. Rahn. Mr. Chairman, the strategic plans that we have in 
place are all constrained by the dollars that we predict are 
going to be available, and so I believe that we have good 
strategic plans with the constraint of available dollars, but 
the strategic plan does not get us where either we want to go 
or the public wants us to go. I believe it gets us where the 
public apparently wants to pay for. That is the issue.
    We are, in many cases, performing triage. We are 
determining within our programs and within the modes, what are 
we going to let to continue to slip, what are we going to do 
away with as we move forward as we have to address the issues. 
The inflationary costs within the construction industry far 
exceed the CPI that the average consumer has seen over these 
last decades.
    The pressures upon us, the usage, the deterioration of our 
system, all of these things we do factor in. We, in fact, do 
have strategic plans in place, but they continue to show a path 
of continuing to crumble infrastructure, higher congestion and 
fewer choices available to the public.
    So, if we can change that paradigm, if we can change the 
inputs into it, we can end up with a different strategic plan.
    Mr. Boustany. Well, I heard Biehler mention earlier the 
need for a national agenda, and I am trying to understand what 
does that mean because I don't think we can dictate here in 
Congress or the U.S. Department of Transportation can dictate 
from the top-down what our strategy is going to be. I believe 
it needs to come from the ground up.
    I want to make sure that, State level, States are doing all 
that they can to come up with a good plan, given the resources 
we have because we are going to have to deal with the resources 
that we have, in effect, unless we come up with other 
innovative ways to finance this.
    And, are the rural communities really integrated well into 
those State strategic plans, Mr. Biehler?
    Mr. Biehler. I would love to talk about that.
    At the Pennsylvania Department of Transportation, in our 
case, we have four primary focus areas. One is preservation of 
our system to the extent that we can.
    Next is intelligent transportation systems. We are probably 
not going to have enough money to address capacity. So we are 
going to use as much as we can, cameras and information 
systems, to maximize the utility of the current system.
    Next is we will never forget about safety in the case of 
the highway system especially.
    Then, finally, it is much more generalized, but you talked 
about a 50,000-foot level issue. It is connecting 
transportation investments to land use and other policy. Boy, 
is that a mouthful.
    Mr. Boustany. That is critical, given different industries 
in certain areas where you may set priorities because of 
certain strategic industries, evacuation routes depending on 
circumstances. Certainly on the Gulf Coast, we have evacuation 
route concerns. Then, of course, congestion is an overriding 
concern for everyone.
    So I appreciate that.
    Mr. Biehler. We are looking at exactly what you said. We 
are not just looking at urban areas but also rural areas, and 
we need to be able to think and encourage land use patterns 
that are most efficient from a transportation standpoint.
    If that means thinking about development patterns so that 
people, to the extent that they are encouraged to walk and 
bicycle, even in rural areas, is a good thing. In Pennsylvania, 
we have lots of precious core towns that we want to help 
encourage that kind of development as opposed to the kind of 
sprawl that will make people so reliant on only auto travel. It 
is just the wrong thing to do.
    In Pennsylvania, we have also put significant subsidy into, 
as an example, an intercity rail line between Harrisburg and 
Philadelphia. That one line has grown dramatically even before 
the most recent fuel increase.
    So, having a balance of different kinds of modes including 
public transportation, whether it is within an area or between 
areas, is critical.
    Mr. Boustany. I thank you.
    Anybody else want to comment? I think my time is up but, 
yes, please.
    Mr. Bowman. I thank you very much.
    I would refer you back to my testimony where I said, in 
fact, that the highway safety improvement program used to be 
targeted to those roads that need safety improvements and local 
government officials need to be part of that process that 
develops the strategic highway safety plan. Current regulations 
do not allow local governments to be involved in that process.
    So is it a good process? Is it a good plan? I really don't 
know because I am not allowed to be part of it, and so I don't 
know the arguments that built it. So if we were there, we would 
have a better idea of that.
    I would also mention again that in my community the 
citizens, one, they voted in, themselves, a 5 percent gas tax 
increase. They allowed our State legislature to bring in a 9.5 
percent gas tax increase within the last 5 or 6 years.
    The reason for that was because every dollar, every dime 
went to a project specific. They were projects that they could 
see, and they felt they concurred with that need.
    Now, in our local community, we did. In fact, the citizens 
doubled their sales tax. They did allow and encourage us to 
increase their boarding fees because they could see the outcome 
of that. It was not a deep hole.
    So I think if the citizens in my communities at least, can 
see the need, they would generally buy into that. We are going 
to test them again on police and safety here this fall. But we 
have tried that on transportation, and it seems to work when 
they can see the need.
    Mr. Schlickman. Very quick and very blunt, every time you 
do an authorization, you set goals for that authorization. They 
are set out there, and they are somewhat tied to the planning 
process.
    From my perspective, there is lip service paid to those 
goals at the regional and State levels. I do not believe that 
there is a strong incentive for urban areas or even States to 
seriously address those goals, and there is no accountability.
    I think the Revenue Commission called for performance 
measures. We are doing performance measures in Chicago, and 
they are tied directly to a strategic plan.
    So, in terms of dictating, sure, I don't think you should 
be dictating the details of a capital improvement program, but 
you certainly should seek adherence to your national goals and 
you should have some way of measuring that. We support that.
    Mr. Boustany. Thank you.
    I yield back.
    Ms. Hirono. [Presiding.] Thank you. Thank you very much. 
Let's proceed to questions by Mr. Sires.
    Mr. Sires. Thank you, Madam Chair. I thank you and the 
panelists for being here.
    Mr. Schlickman. Yes, sir.
    Mr. Sires. I heard you mention that you are doing a capital 
assessment in metropolitan areas. I know it is not complete, 
but can you tell me what factors you are taking into 
consideration?
    I am from New Jersey, and I am very interested. At the end 
of your process, if we could have a copy of it, I would be very 
interested.
    Mr. Schlickman. Absolutely.
    Mr. Sires. But what factors are you taking into 
consideration?
    Mr. Schlickman. Well, simply what we are doing is we are 
surveying our members--New Jersey is one of them--to give us 
their capital needs in a uniform way according to a set of 
criteria or not criteria but categories: rolling stock, 
facilities, electrical and communications.
    Give us that information. We will aggregate it for you and 
submit it for the record. That will sort of give you the 
baseline view of where we are at with our unfunded maintenance 
needs. That is out intent.
    Mr. Sires. The ultimate goal is what?
    Mr. Schlickman. To give you a better picture of how serious 
the maintenance needs are particularly for the largest transit 
systems in the Country.
    I tried to give you an example of those maintenance needs 
by using Chicago, but what I would like to provide the 
Committee in a more definite detailed summary, and that is what 
we intend to do.
    Mr. Sires. Thank you very much.
    I assume that everybody that is on this panel are 
directors. Whether it is a different State, you are going 
through a similar process. What are the factors that you use to 
cut back because obviously there is not enough money to run 
your systems?
    Everything is getting more expensive. I heard you mention 
steel. I heard you mention asphalt. What is your criteria when 
you start cutting back?
    Sooner or later you are going to have to start. Do you go 
with manpower first? I assume that is the last thing you go 
for.
    Mr. Biehler. Yes, I would be happy to.
    We have done everything from having a much greater use of 
recycled asphalt as an example.
    We have clearly had a different focus on our design, 
looking at the footprint of when we have newer construction to 
see if we can end up with, in this case, a roadway that has a 
smaller footprint than we have typically designed for in the 
past.
    We have simply cut out huge amounts of capacity projects 
that we no longer can afford. We have either called for them to 
be rescaled smaller or simply stopped.
    We also are focusing in the case of our bridge system on 
making sure we are looking at 100-year design. So when that 
project is any new bridges are put in place, we have a longer 
life.
    We have also in the case of our bridge system had a special 
preservation program to simply try to extend the life of our 
structures. So we are trying quite a series of activities.
    Then, finally, we are walking into the very difficult issue 
of trying to think about better land use connection with 
transportation investment. It is more difficult because, 
obviously, the Department of Transportation doesn't control 
land use. It is all the 2,550 some odd municipalities within 
the Commonwealth of Pennsylvania, and we need to have that 
partnership.
    Mr. Sires. Mr. Biehler, wasn't Pennsylvania working with 
New Jersey Transit to link right all the way up to New York 
City? Wasn't there a railroad yard or something they were 
working on?
    Mr. Biehler. Yes. Yes, clearly so.
    Mr. Sires. With all these cuts, is that going to be a 
problem in the future?
    Mr. Biehler. It may well be.
    I would also point out when you mentioned Pennsylvania and 
New Jersey. We have been working with the New Jersey Department 
of Transportation on something called a Smart Transportation 
Design Guidebook. Again, it is kind of a joint effort that we 
are going to both benefit from as we just turn the corner and 
think of our jobs differently.
    Mr. Sires. You wanted to add something, Mr. Bowman?
    Mr. Bowman. Yes. Just on the small community aspect of it, 
we just go back and reevaluate and prioritize projects. Part of 
that, a huge part of that is just the reevaluation of which one 
is costing us the most to maintain and trying to do the upgrade 
on that. So we can actually reduce the maintenance, as I said, 
from 80 to 90 percent by doing a good job on those upgrades. 
That is a real key to us.
    Mr. Allegra. Thank you. I would like to highlight a couple 
of things we are quite proud of in Utah. There are four of them 
in particular I would like to mention and put on the table.
    One of them is our construction methodologies. I think we 
are enabled to use very innovative construction techniques that 
allow us to be very creative in the way we deliver projects. We 
have done design, bid, build. We have done design, build. We 
are using construction manager general contractor.
    We are now looking to our new approach, where we share 
risks with the contractors and designers, called alliancing. 
That has been fortuitous to us in terms of delivery of our 
projects.
    As we build our capital projects, we sign very delicate 
agreements with local governments so that our expectations of 
what we are building are met as well as maintaining the cost of 
keeping up those facilities. So we don't allow the cities to 
get us to build things that are going to be very expensive to 
maintain.
    Thirdly, we are using existing facilities for our 
maintenance shops. In fact, when we acquired the Union Pacific 
Railroad in Utah, they gave us a maintenance facility. We 
probably have the lowest cost maintenance facility in the 
United States because we are using and reusing buildings that 
have been out there.
    Then, lastly, I appreciate the State of New Jersey and New 
Jersey Transit because we have been acquiring used rail cars to 
supplement our fleet. We have 29 NJT Comet Cars that we 
acquired from NJT to help us supplement our fleet and get more 
service on the road for less cost.
    Mr. Sires. So I am correct to assume that the last thing 
you would do is cut manpower, no?
    Mr. Allegra. Not in our case. We are rapidly, rapidly 
growing. The last thing we want to do in the transit industry 
is reduce services. So one of the things you have heard today 
is that we are having a fuel surcharge, and we have had a 
successful outcome just recently in Utah about saying as the 
price of diesel fuel goes up for our fleets, we need to incur 
that cost, some of it, ourselves by belt-tightening, but more 
of that comes from an increase in our fares.
    Mr. Sires. Thank you.
    I think I am way past my time. Thank you very much for your 
courtesy.
    Ms. Hirono. Mr. Schlickman, did you want to make a very 
short comment.
    Mr. Schlickman. Yes. On your last point about labor, what 
will happen on the operating side if you don't maintain the 
system is you become more inefficient on the operating side. 
That eats into your ability to pay for day to day operating 
expenses. When that is challenged, then you have to consider 
possibly cutting service, and then that means cutting labor. So 
they are intertwined.
    Mr. Sires. Thank you.
    Ms. Hirono. Mr. Dent.
    Mr. Dent. Thank you, Madam Chair.
    Secretary Biehler, great to see you again. Thanks for being 
here, Secretary.
    On page three of your testimony as well as page four, I 
know you refer to the two proposals under consideration in 
Pennsylvania, leasing the turnpike as well as Act 44 which 
would provide for the tolling of Interstate 80 on the northern 
tier.
    I just want to be clear for the record that the 
Commonwealth is pursuing both. Well, Act 44 is a law. You are 
waiting approval of tolling of I-80 from the Federal Highway 
Administration.
    Is it my understanding that your application must be 
resubmitted? It was sent back to make revisions and changes, is 
that correct?
    Mr. Biehler. That is correct.
    Mr. Dent. Will you be resubmitting that application with 
changes and simultaneously seek to lease the turnpike?
    Mr. Biehler. The application that was submitted by the 
Turnpike Commission was found to need additional augment.
    Mr. Dent. Right.
    Mr. Biehler. The Commission is in the process of trying to 
finish revisions to get it submitted. But, yes, the answer is 
yes.
    At this point, we don't know if the tolling of Interstate 
80 will be approved by the Federal Highway Administration.
    Mr. Dent. Right.
    Mr. Biehler. The Governor, Governor Rendell, has been a 
real champion for trying to increase infrastructure investment. 
In his continued effort, he has said that he simply wanted to 
know what it would mean if we considered privatizing the 
Pennsylvania Turnpike, in effect, leasing similar to Indiana. 
In fact, that process was completed, at least in terms of 
taking bids, a few weeks ago.
    It turned out, surprisingly, that the amount of proceeds 
project from the Act 44 that included tolling I-80 would be if 
you leased the turnpike as an alternate, leasing the turnpike 
would produce something like $100 million plus more per year 
over a period of 75 years than would the Act 44.
    So the Governor wanted to and is in the process of talking 
to the general assembly to see if they are willing to consider 
that.
    Mr. Dent. The question I am getting from some of my 
constituents, Mr. Secretary, is this: If I-80 is to be tolled 
and approved by the Federal Highway Administration, would then 
the Commonwealth still seek to privatize the turnpike system, 
knowing that I-80 would now be part of the turnpike system?
    Mr. Biehler. The Governor has proposed as part of his 
proposal to lease the turnpike, that he has proposed not to 
lease Interstate 80.
    Mr. Dent. Okay. So I-80 would not be part of any lease.
    Mr. Biehler. Just so the Committee knows, this Act 44 
depended on increasing the turnpike tolls by about 25 percent 
beginning in 2009 and about 3 percent thereafter was their 
projection, coupled with tolling Interstate 80 for the first 
time at the same toll structure which would mimic the main line 
of the Pennsylvania Turnpike. They are about 60 to 75 miles 
apart but parallel across the State.
    Interestingly enough, the private marketplace in this 
recent bidding showed that it would provide enough up-front 
dollars to be invested to be able to pull off of that not only 
the amount equal to this other option, but in fact it would 
exceed it by an amount in excess of $100 million.
    Mr. Dent. So I can tell my constituents that should I-80 be 
tolled, that would not become part of a privatized turnpike?
    Mr. Biehler. That is what the Governor's proposal is.
    Mr. Dent. Okay. The other question I had too: Should I-80 
be tolled, should the Federal Highway Administrator approve 
that, have you given consideration in terms of traffic 
diversion off of I-80 onto other routes including I-78?
    I'd like to get that information. If you don't have it, 
please send it to me at some point. I would like to see it.
    Mr. Biehler. I would simply mention, Mr. Dent, as part of 
the analysis that the turnpike is required to do is to examine 
that. So, when that is done, we will make sure that they know 
that you are interested and make sure it gets sent.
    Mr. Dent. I just would like to see whatever analyses have 
been done on diversion.
    Mr. Biehler. Sure.
    Mr. Dent. Coming out of New Jersey, I suspect there will be 
a lot of traffic coming down off 287 on the 78, avoiding I-80, 
should it become tolled.
    Mr. Biehler. Sure.
    Mr. Dent. A second comment, there was a national 
publication that I know caused you some concern and heartburn 
with respect to Pennsylvania's bridge funds being diverted 
elsewhere. I know it created a lot of heartburn. Some Members 
of the Committee were concerned about that.
    I just wanted to give you the opportunity to explain what 
was in that document and why maybe you weren't diverting a 
third of your bridge funds for other purposes.
    Mr. Biehler. More than meets the eye there. The Federal 
Bridge Program--interestingly enough, you talked about 
flexibility earlier--allows 40 to 50 percent of those dollars 
to be used and transferred to other programs. Pennsylvania took 
full advantage of that and I think, unless I am mistaken, was 
the leader in all of the States in terms of the amount of money 
in bridge funds that were shifted to other programs for the 
Federal permission.
    Makes you want to ask why did you do that when you have 
perhaps the largest number of structurally deficient bridges of 
any State in the United States?
    Well the answer is pretty simple. First of all, the amount 
of money that we shifted, we spent much more on our bridge 
program in Pennsylvania than all of the money combined that was 
in shifting. What really was going on was simply to be more 
efficient in terms of our bookkeeping.
    The Federal requirements are that if you use bridge funds 
on a project--let's say you have a five-mile highway you are 
rebuilding and there are three or four bridges in that stretch, 
you have to keep two sets of books. And so, what we decided was 
to transfer the money elsewhere, use other portions of Federal 
dollars to build it.
    It is sort of a net zero sum game, but if you were 
interested in picking at us, you could try to make a story out 
of it. The bottom line, though, is we have spent so much more 
on our bridge program than that program would even allow. We 
were just trying to simply be able to have an efficient book.
    Mr. Dent. What was the name of that document? It was a 
report. Was it in Transportation Week?
    Mr. Biehler. Yes. In fact, I wrote you a letter.
    Mr. Dent. I know. You sent me a long, extensive letter.
    Mr. Biehler. If you are interested in seeing that, I would 
be happy to provide it to the Committee.
    Mr. Dent. You might want to circulate that to the entire 
Committee.
    Mr. Biehler. Sure. I would be happy to.
    Ms. Hirono. Mrs. Napolitano, please proceed.
    Mrs. Napolitano. Thank you, Madam Chair.
    I have listened with great interest to the testimony given 
here today. While there is nobody from my neck of the woods in 
California, it is interesting to hear the different ways that 
you have addressed some of the issues that you have in 
transportation in your areas.
    I listened with great intent in regard to the comparison of 
foreign investment versus U.S., but many of the States have not 
invested much in their infrastructure. I can tell you 
California has been one of them. So they rely mostly on Federal 
funds instead of being able to invest in our own 
infrastructure.
    Why is that? Anybody?
    Mr. Schlickman. I will address from the transit 
perspective, and I mentioned it earlier.
    We have, unfortunately, gotten into a position where we 
will do a five-year capital program at the State level that 
winds up dragging out to ten years rather than five years. The 
reason for that is that those capital programs are largely bond 
programs and require new revenue sources, new revenue streams 
in order to pay for those bonds. When the program expires, 
there unfortunately is a lack of political will really to 
identify new revenue streams which usually comes in the form of 
a tax, mostly in the user fee area.
    What I mentioned specifically earlier is that on the 
transit side, I mean we used to be able to say that if you 
don't do a new State capital program, we are not going to be 
able to match Federal dollars and those Federal dollars are 
going to fall off the table and go to some other State.
    But we have this toll credit opportunity, and they know we 
have toll credits because we have an Illinois Toll Highway 
Authority that produces hundreds of millions of dollars in 
tolls each year, and those toll credits replace real money for 
matching purposes. So that is a huge disincentive.
    There isn't a clear incentive to come up with real money 
for matching. Again, it sort of takes away the opportunity for 
people to find the political will to do what they need to do.
    Now, that said, the backlog of capital projects in the 
State of Illinois is huge and is putting a great pressure at 
the State level to do a capital initiative, and we will do a 
capital initiative.
    Mrs. Napolitano. Thank you, Mr. Schlickman. I think you 
have hit the nail on the head, though, the political will.
    I have very short time, if you would answer it very 
quickly, sir.
    Mr. Rahn. Yes, ma'am.
    The Federal share on capital expenditures for a highway 
program is 45 percent. It has pretty stayed within that realm 
over the last several decades. It has probably shrunk.
    Mrs. Napolitano. So you are suggesting it should be 
increased?
    Mr. Rahn. It has actually shrunk a couple of percent. So 
the idea that the Federal Government has picked up a larger 
share of the construction in the realm of highways is fact not 
borne out by the facts. It is the States have been contributing 
dollars toward that at about 55 percent.
    Mrs. Napolitano. Well, many of the things that are coming 
up, and one of my concerns is the rail versus highway, in other 
words, getting people out of their cars and into mass transit. 
Given the higher gasoline cost, that is going to reduce taxes 
that are going to be available to the States which then brings 
on more reliance on rail.
    However, the railroads own a lot of the rail itself, so 
their biggest producer of funds is goods movement versus 
commuters. That brings in rail crossings, the railroad grades 
separations which are critical to be able to move not only 
commuter but goods movement.
    How is it that we may be able to marry it, if you will, or 
be able to put priorities to increase the ridership and still 
maintain the economy that goods movement brings, especially 
from the West to the East?
    Yes?
    Mr. Rahn. I don't have an answer for you. That is a huge 
problem that we have.
    Mrs. Napolitano. Thank you.
    Mr. Allegra and then Mr. Schlickman.
    Mr. Allegra. Thank you.
    Perhaps Utah is a good example where we have formed a 
wonderful partnership with the Union Pacific Railroad. In 2002, 
we purchased perhaps all of the railroad rights of way in our 
urban areas and allowed the railroads to continue to run their 
service. So we actually bought a portion of their railroad 
right of way and are now running our own passenger service next 
to their freight services.
    We are quite proud of that model, and that is one of the 
reasons that has allowed us to greatly expand our system. So, 
in Utah, you will see and you have heard that we are rapidly 
expanding our system, and our local community has agreed to pay 
for that investment.
    Mrs. Napolitano. Thank you. Very good.
    Mr. Schlickman. We have an excellent relationship with 
virtually all the freight railroads. They all converge on 
Chicago. We have the largest freight rail hub in the United 
States, third largest in the world.
    Our commuter rail system runs on largely freight rail 
tracks, but as you probably know and you have probably heard of 
the CREATE program that Chicago and the State and the 
Association of American railroads have put forward to address a 
huge capacity problem that we have. That needs to be addressed.
    Again, we need the political will at the State level to 
step up and match what might be provided from the Federal 
level. It is clearly a Federal issue. I mean we have freight 
backing up all the way to Los Angeles.
    Mrs. Napolitano. Well, it might be a Federal issue, sir, 
excuse me, but it is also a railroad issue in many areas.
    Mr. Schlickman. Certainly. They are partners in the 
process, and they need to make a commitment as well.
    Mrs. Napolitano. I have the Alameda Corridor East going 
through my district which brings in over 50 percent of the 
Nation's goods to the eastern area, and yet I have 54 
crossings. Only 20 are going to be grade separated.
    Not only is that going to slow down the train traffic, but 
it is also going to be more imposing on the community and the 
quality of life, the environment, the safety. You name it. So 
those are issues that I am contending are going to have to be 
part of what the new surface transportation authorization is 
going to have to address.
    Mr. Schlickman. I totally agree.
    Mrs. Napolitano. I think I am running out of time, ma'am. I 
think the gentleman wants to have just one word.
    Ms. Hirono. Very quickly.
    Mr. Bowman. Thank you.
    Very good question. My experience has been two-fold. One is 
rail crossings that you are talking about. It is a huge issue 
for me. I fight with the railroad company all the time and get 
nowhere. I get lip service, and nothing happens. That is 
another 25-minute discussion.
    However, the success is that we actually in Washington 
State, in my community, have what is known as Rail Ex. This is 
where everybody brings their produce into one location. Within 
four days, it is on a train. Within five days after that, it is 
actually in New York State, and it is local produce.
    So it is some type of a program. I am not sure how that 
works, but it is working well for us. In fact, they are 
doubling that process now. It is two times a week they are 
going out with that. So there are some successes.
    Mrs. Napolitano. Thank you, sir.
    Thank you, Madam Chair.
    Ms. Hirono. Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    Mr. Biehler, you mentioned earlier that, oh, using cameras, 
things like that, that you could increase the capacity in the 
system.
    I am always amazed. Being on the Committee for several 
years and driving around, you notice things like signage. 
Sometimes signage is totally screwed up and, as a result, it 
really does exacerbate the problem.
    Again, I know you don't know it exactly, but is there a lot 
of low-hanging fruit by doing those kinds of things, getting 
that straight, that we can increase the capacity a little bit 
more?
    Certainly we have to spend a lot of money on the 
infrastructure, but what can we do in regard to that that we 
can almost fix overnight?
    Mr. Biehler. Yes, I think it has been pointed out 
especially in very congested corridors if you can do incident 
management much better. It is a huge issue.
    People have talked about having delay being as much as 50 
percent related to these temporary incidents of crashes or 
breakdowns and so on and how that has a huge impact on the 
capacity of the system for a short period of time. But coupled, 
it really, really makes a difference. So if you can get out 
there quickly and remove those that is the kind of thing we are 
talking about.
    The other thing is simply providing better information to 
the public about blockages that are in the system 10 miles 
ahead allows people to react differently.
    So, no. I think it is one of those low-hanging fruit issues 
simply as we have seen in a number of States that have 
campaigned. Simply retiming traffic signals, something as small 
as that can make a 10 to 15 percent difference in your system.
    Now the average rider, I am not sure they sense what a 10 
percent increase is, but it means something, and it certainly 
means something in terms of fuel economy and so on. There are a 
number of those things that we ought to be moving ahead more 
rapidly on.
    We are trying to do that in Pennsylvania. We have a ways to 
go, but we are certainly heading that way.
    So, no. Those are things we absolutely should do. But to 
think that that now takes care of the problem is probably not 
accurate at all, but it is certainly stuff that we ought to put 
in our back pocket.
    Mr. Boozman. It is not going to take care of the problem, 
but it is in many cases fairly inexpensive to do. Even, in some 
cases, spending a lot of money down the road still doesn't take 
care of that problem if that makes sense.
    So something that would be helpful to me is any 
suggestions. We don't have time now but any suggestions, if you 
could just write a little note as to how we can incentivize 
people to do that, I think would be very, very helpful.
    Mr. Rahn, in your testimony, again, being in Arkansas next 
door, it is kind of scary. You mentioned tremendous increases 
in traffic, truck traffic in the future and stuff. Then also in 
your written testimony, you testified to the fact that much of 
the infrastructure in Missouri is in dire straits as it is 
through the rest of the Nation.
    I guess the question is how are you using the assets that 
you have now?
    How are you maximizing to kind of keep things?
    What are your best practice areas of keeping things going?
    Mr. Rahn. Right now, most of what we are dealing with are 
surface treatments. I-70 is now 52 years old, and it is mush 
underneath. We will put a three-inch overlay on it, and it will 
be smooth for a while. But with 35 to 40 percent truck traffic 
on it, it doesn't last.
    What we are doing right now is just trying to hold it 
together. The bottom line is, though, we need to reconstruct I-
70. Our costs, we have a clear DIS on it: $3.5 billion to 
rebuild I-70 across the State, and we have zero dollars.
    Mr. Boozman. How much loss in buying capacity have you 
experienced in the last 15 years, would you guess?
    Mr. Rahn. It is huge.
    Mr. Boozman. Sixty percent? Fifty percent?
    Mr. Rahn. It is 60 to 80 percent with what we are seeing in 
inflation right now. Our projection has been that it would be 
80 percent by 2015, but I believe with current inflation rates, 
that is going to occur much sooner than that.
    So the dollars that we are putting into this are buying so 
much less.
    Mr. Boozman. I think the figure that Dan Flowers uses, 
again, this was several months ago, prior to the oil runup and 
things. I think his was 60 percent in the last 15 years. Those 
numbers are very helpful to us because you feel like you are 
doing something, but when you actually look, that is just 
staggering to deal with.
    I appreciate your testimony. Not only your verbal but your 
written testimony was very good.
    Mr. Bowman, very quickly.
    Mr. Bowman. Real quickly, it is interesting.
    Mr. DeFazio. [Presiding.] Very quickly, because we are 
going to try to get you out of here without having you wait 
through a bunch of votes.
    Mr. Bowman. Thank you.
    Coordination of signal lights in Washington State, there is 
a citizens' initiative that would require exactly that.
    Mr. DeFazio. Okay. Thank you.
    We have two remaining people with questions and, in order 
of arrival, first would Ms. Hirono.
    Ms. Hirono. Very briefly, there are all kinds of reasons 
for wanting to support rail transit, and I was particularly 
interested, Mr. Allegra, in your testimony.
    Turning to pages four and five of your testimony, you make 
some recommendations. I would just like to know which of these 
recommendations are best done by Congressional action, via 
statute, statutory changes? Can you just go over very quickly?
    Mr. Allegra. Yes, I can if you are referring to those that 
are starting with allowing for the exceptions.
    Ms. Hirono. Yes, pages four and five.
    Mr. Allegra. Many of them are referring to the New Starts 
process that we are heavily involved.
    Ms. Hirono. Honolulu City and County is one of the New 
Starts programs, and that is why I am interested.
    Mr. Allegra. I am aware, and I have been helping the Mayor 
there through this process.
    There are many of those issues that we are working through 
the APTA and the Federal Transit Administration to streamline 
the process.
    Ms. Hirono. Are there any that require Congressional or 
statutory clarification or authorization in your suggestions?
    Mr. Allegra. Perhaps the one dealing with the New Starts 
rating called the Transportation System User Benefits. That is 
one of the Federal requirements that I am aware of, and there 
is some keen interest, I believe, in Congress as to relooking 
at that factor.
    Ms. Hirono. What about on page five of your testimony, you 
had some suggestions on streamlining project delivery? Any of 
those require or are best done by Congressional or statutory 
action?
    Mr. Allegra. I don't believe so.
    Ms. Hirono. All right. Thank you very much.
    Mr. DeFazio. Thank you. Those are good questions, and we 
are always interested in ideas on how to streamline the process 
there. We have been trying to get them to develop rules that 
are congruent with the law. We don't think they have, and any 
ideas you have would be great.
    Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    Earlier today in the discussion, there was much talk about 
flexibility. I am one of the new kids on the block. I just 
recently served in local government less than a year ago and 
then in the State Assembly. So I would welcome any suggestions 
you have as we go through this SAFETEA-LU process.
    Any suggestions that you would like to see, very specific, 
about the flexibility required, I would be willing to bring 
those forward with the Chairman and seek help because I saw 
that very closely in serving in local government, which leads 
me to my question.
    One of the things that I found in local government is that 
oftentimes the Federal funds that were available were only 
available or they were very restricted to doing the actual 
project itself, and there were great restrictions having to do 
with the preplanning, the design, which oftentimes the time 
period that it takes to do that, to bring these projects to 
fruition, to make these changes, and maintenance oftentimes 
isn't included.
    Do you find that to be the case? This might be more a 
question directed to Mr. Bowman.
    Mr. Bowman. I'm sorry. Could you repeat that? I was trying 
to write down your own request on the flexibility.
    Ms. Richardson. My question was, do you find that the 
maintenance funding is so restrictive that it doesn't allow you 
to pay for all aspects towards the improvements?
    What I mean by that is in the capital investment side, 
there are great restrictions prohibiting you from using funding 
on the planning side, on the design side, et cetera. So my 
question is have you found that to be the case on the 
maintenance side as well?
    Mr. Bowman. Maintenance side, again, we just try never to 
use Federal money or somebody else's money for maintenance 
because it is so inflexible and so insecure and so on. So we 
just try not to build anything we cannot afford to maintain, 
and then we try to maintain it the best we can without using 
any other funds to do that just to keep ourselves safe.
    Ms. Richardson. Do you find that on the capital investment 
side to be a challenge?
    Mr. Bowman. Obviously, yes.
    Ms. Richardson. Okay.
    Mr. Chairman, I am going to conclude by just saying that as 
we move through this process I think that is one area we should 
consider which is at what point along the phases can local 
governments and State utilize the funding.
    The second thing would be us seriously looking at 
requiring, with Federal funding, regional planning. What I mean 
by that, in addition to being on the council I was a member of 
SCAG which is the Southern California Association of 
Governments. Given our limited funding, I think one of our 
pushbacks should be in addition to the gains that we will 
provide is requiring future projects must have regional 
benefits, and that way we can cover as much as possible.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentlelady. She is a new Member of 
the Committee but has been very incisive in her observations 
and questions, and we look forward to working with her, with 
her experience.
    I can think of another way we could approach it. It would 
be with regional planning, we might give more flexibility and, 
without regional plans, we might be more prescriptive, 
something along those lines.
    We are also interested in working on this multiple 
stovepipe issue which was raised earlier and flexibility, but 
we also have to determine what the proper priorities are for 
the Fed investment versus the State investment. That is an 
ongoing dialogue, I think we will want to have with all of you.
    I want to thank you for taking your time to be here today, 
for presenting testimony. I think we can agree on one thing 
which is we need to invest more. Now we have to figure out in 
what form and how we are going to raise the money. Anybody who 
has great ideas for that, let me know.
    Thank you very much. This hearing is now adjourned.
    [Whereupon, at 12:23 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T2776.010
    
    [GRAPHIC] [TIFF OMITTED] T2776.011
    
    [GRAPHIC] [TIFF OMITTED] T2776.012
    
    [GRAPHIC] [TIFF OMITTED] T2776.013
    
    [GRAPHIC] [TIFF OMITTED] T2776.014
    
    [GRAPHIC] [TIFF OMITTED] T2776.015
    
    [GRAPHIC] [TIFF OMITTED] T2776.016
    
    [GRAPHIC] [TIFF OMITTED] T2776.017
    
    [GRAPHIC] [TIFF OMITTED] T2776.018
    
    [GRAPHIC] [TIFF OMITTED] T2776.019
    
    [GRAPHIC] [TIFF OMITTED] T2776.020
    
    [GRAPHIC] [TIFF OMITTED] T2776.021
    
    [GRAPHIC] [TIFF OMITTED] T2776.022
    
    [GRAPHIC] [TIFF OMITTED] T2776.023
    
    [GRAPHIC] [TIFF OMITTED] T2776.024
    
    [GRAPHIC] [TIFF OMITTED] T2776.025
    
    [GRAPHIC] [TIFF OMITTED] T2776.026
    
    [GRAPHIC] [TIFF OMITTED] T2776.027
    
    [GRAPHIC] [TIFF OMITTED] T2776.028
    
    [GRAPHIC] [TIFF OMITTED] T2776.029
    
    [GRAPHIC] [TIFF OMITTED] T2776.030
    
    [GRAPHIC] [TIFF OMITTED] T2776.031
    
    [GRAPHIC] [TIFF OMITTED] T2776.032
    
    [GRAPHIC] [TIFF OMITTED] T2776.033
    
    [GRAPHIC] [TIFF OMITTED] T2776.034
    
    [GRAPHIC] [TIFF OMITTED] T2776.035
    
    [GRAPHIC] [TIFF OMITTED] T2776.036
    
    [GRAPHIC] [TIFF OMITTED] T2776.037
    
    [GRAPHIC] [TIFF OMITTED] T2776.038
    
    [GRAPHIC] [TIFF OMITTED] T2776.039
    
    [GRAPHIC] [TIFF OMITTED] T2776.040
    
    [GRAPHIC] [TIFF OMITTED] T2776.041
    
    [GRAPHIC] [TIFF OMITTED] T2776.042
    
    [GRAPHIC] [TIFF OMITTED] T2776.043
    
    [GRAPHIC] [TIFF OMITTED] T2776.044
    
    [GRAPHIC] [TIFF OMITTED] T2776.045
    
    [GRAPHIC] [TIFF OMITTED] T2776.046
    
    [GRAPHIC] [TIFF OMITTED] T2776.047
    
    [GRAPHIC] [TIFF OMITTED] T2776.048
    
    [GRAPHIC] [TIFF OMITTED] T2776.049
    
    [GRAPHIC] [TIFF OMITTED] T2776.050
    
    [GRAPHIC] [TIFF OMITTED] T2776.051
    
    [GRAPHIC] [TIFF OMITTED] T2776.052
    
    [GRAPHIC] [TIFF OMITTED] T2776.053
    
    [GRAPHIC] [TIFF OMITTED] T2776.054
    
    [GRAPHIC] [TIFF OMITTED] T2776.055
    
    [GRAPHIC] [TIFF OMITTED] T2776.056
    
    [GRAPHIC] [TIFF OMITTED] T2776.057
    
    [GRAPHIC] [TIFF OMITTED] T2776.058
    
    [GRAPHIC] [TIFF OMITTED] T2776.059
    
                                    

</pre></body></html>
